<html>
<title> - PRIVACY IN THE HANDS OF THE GOVERNMENT: THE PRIVACY OFFICER FOR THE DEPARTMENT OF HOMELAND SECURITY</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]



  PRIVACY IN THE HANDS OF THE GOVERNMENT: THE PRIVACY OFFICER FOR THE 
                    DEPARTMENT OF HOMELAND SECURITY

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                   COMMERCIAL AND ADMINISTRATIVE LAW

                                 OF THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                           FEBRUARY 10, 2004

                               __________

                             Serial No. 85

                               __________

         Printed for the use of the Committee on the Judiciary


    Available via the World Wide Web: http://www.house.gov/judiciary


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
91-751                      WASHINGTON : DC
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                       COMMITTEE ON THE JUDICIARY

            F. JAMES SENSENBRENNER, Jr., Wisconsin, Chairman
HENRY J. HYDE, Illinois              JOHN CONYERS, Jr., Michigan
HOWARD COBLE, North Carolina         HOWARD L. BERMAN, California
LAMAR SMITH, Texas                   RICK BOUCHER, Virginia
ELTON GALLEGLY, California           JERROLD NADLER, New York
BOB GOODLATTE, Virginia              ROBERT C. SCOTT, Virginia
STEVE CHABOT, Ohio                   MELVIN L. WATT, North Carolina
WILLIAM L. JENKINS, Tennessee        ZOE LOFGREN, California
CHRIS CANNON, Utah                   SHEILA JACKSON LEE, Texas
SPENCER BACHUS, Alabama              MAXINE WATERS, California
JOHN N. HOSTETTLER, Indiana          MARTIN T. MEEHAN, Massachusetts
MARK GREEN, Wisconsin                WILLIAM D. DELAHUNT, Massachusetts
RIC KELLER, Florida                  ROBERT WEXLER, Florida
MELISSA A. HART, Pennsylvania        TAMMY BALDWIN, Wisconsin
JEFF FLAKE, Arizona                  ANTHONY D. WEINER, New York
MIKE PENCE, Indiana                  ADAM B. SCHIFF, California
J. RANDY FORBES, Virginia            LINDA T. SANCHEZ, California
STEVE KING, Iowa
JOHN R. CARTER, Texas
TOM FEENEY, Florida
MARSHA BLACKBURN, Tennessee

             Philip G. Kiko, Chief of Staff-General Counsel
               Perry H. Apelbaum, Minority Chief Counsel
                                 ------                                

           Subcommittee on Commercial and Administrative Law

                      CHRIS CANNON, Utah Chairman

HOWARD COBLE, North Carolina         MELVIN L. WATT, North Carolina
JEFF FLAKE, Arizona                  JERROLD NADLER, New York
JOHN R. CARTER, Texas                TAMMY BALDWIN, Wisconsin
MARSHA BLACKBURN, Tennessee          WILLIAM D. DELAHUNT, Massachusetts
STEVE CHABOT, Ohio                   ANTHONY D. WEINER, New York
TOM FEENEY, Florida

                  Raymond V. Smietanka, Chief Counsel

                        Susan A. Jensen, Counsel

                        Diane K. Taylor, Counsel

                  James Daley, Full Committee Counsel

                   Stephanie Moore, Minority Counsel


                            C O N T E N T S

                              ----------                              

                           FEBRUARY 10, 2004

                           OPENING STATEMENT

                                                                   Page
The Honorable Chris Cannon, a Representative in Congress From the 
  State of Utah, and Chairman, Subcommittee on Commercial and 
  Administrative Law.............................................     1
The Honorable Melvin L. Watt, a Representative in Congress From 
  the State of North Carolina, and Ranking Member, Subcommittee 
  on Commercial and Administrative Law...........................     2

                               WITNESSES

Ms. Nuala O'Connor Kelly, Chief Privacy Officer, United States 
  Department of Homeland Security, Washington, DC
  Oral Testimony.................................................     6
  Prepared Statement.............................................     9
The Honorable James S. Gilmore, III, President, USA Secure 
  Corporation, Washington, DC
  Oral Testimony.................................................    13
  Prepared Statement.............................................    16
Ms. Sally Katzen, Visiting Professor, University of Michigan Law 
  School, Ann Arbor, MI
  Oral Testimony.................................................    21
  Prepared Statement.............................................    22
James Dempsey, Esquire, Executive Director, Center for Democracy 
  and Technology, Washington, DC
  Oral Testimony.................................................    25
  Prepared Statement.............................................    27

                                APPENDIX
               Material Submitted for the Hearing Record

Letter and questions submitted by the Honorable Chris Cannon, to 
  Ms. Nuala O'Connor Kelly, Chief Privacy Officer, U.S. 
  Department of Homeland Security................................    43

 
  PRIVACY IN THE HANDS OF THE GOVERNMENT: THE PRIVACY OFFICER FOR THE 
                    DEPARTMENT OF HOMELAND SECURITY

                              ----------                              


                       TUESDAY, FEBRUARY 10, 2004

                  House of Representatives,
                         Subcommittee on Commercial
                            and Administrative Law,
                                Committee on the Judiciary,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 3:02 p.m., in 
Room 2141, Rayburn House Office Building, Hon. Chris Cannon 
(Chair of the Subcommittee) presiding.
    Mr. Cannon. Thank you all for coming out.
    Let me begin by hereby welcoming our esteemed witnesses, 
some of whom I've had the pleasure of working with on privacy 
issues and other matters over the years.
    I also want to note that immediately following the hearing 
we have scheduled a markup of H.R. 338, the ``Defense of 
Privacy Act.'' Indeed, if we have a critical mass of Members to 
report that bill, we may recess this hearing briefly to 
accomplish that task.
    The title of today's hearing, Privacy in the Hands of 
Government: The Privacy Officer for the Department of Homeland 
Security, clearly sets out what we plan to examine this 
afternoon. We will review the work and responsibility of the 
Department's Privacy Officer and consider whether the statute 
creating this position sufficiently addresses concerns about 
the Department's handling of personally identifiable 
information.
    We will also examine how the Department has met the rather 
daunting challenge of detecting and deterring terrorism while 
safeguarding Americans from unwanted or unwarranted 
Governmental intrusion. I suppose all intrusion is unwanted. A 
lot of it is, in fact, unwarranted.
    For those of you don't know, the creation of the Privacy 
Officer Position in the Department of Homeland Security marked 
the first time that Congress statutorily mandated a Federal 
agency to appoint a senior official to be primarily responsible 
for privacy policy and compliance matters. Indeed, this 
Subcommittee, with the support of our Chairman, Jim 
Sensenbrenner, played a major role in ensuring that the 
legislation establishing the Department of Homeland Security 
not only mandated the appointment of a Privacy Officer, but 
specified the officer's responsibilities. This was done in 
response to concerns expressed on a bipartisan basis about the 
anticipated agency's ability to collect, manage, share, and 
secure personally identifiable information.
    One of the principal statutory responsibilities of the DHS 
Privacy Officer, as set out by statute, is the duty to assure--
to assure that the use of technologies sustain and do not erode 
privacy protections relating to the use, collection, and 
disclosure of personal information.
    In addition, the Privacy Officer must assure that personal 
information is handled in full compliance with the Privacy Act 
and assess the effect on privacy of the Department's proposed 
rules. These are two of the areas that we hope to focus on 
during the course of today's hearing.
    Pursuant to this legislation, Department of Homeland 
Security Tom Ridge last April appointed Nuala O'Connor Kelly to 
serve as the Department's Privacy Officer. Since her 
appointment, Ms. O'Connor Kelly has played an active role in 
various terrorist detective initiatives undertaken by DHS. One 
of those projects has been the Computer-Assisted Passenger 
Prescreening System, also known as CAPPS II, which is intended 
to improve airline security.
    In addition, Ms. O'Connor Kelly prepared a privacy impact 
assessment for the United States Visitor and Immigration Status 
Indicator Technology Program, also known as the US-VISIT 
program. This program consists of an integrated entry and exit 
data system designed to record the entry into and exit out of 
the United States by noncitizens. Last month, US-VISIT entry 
procedures became operational at 115 airports and 14 seaports 
together with a pilot test of biometric identification 
procedures at one airport and one seaport
    I should note that today's hearing is one in a series the 
Subcommittee will hold on the issue of privacy in the hands of 
Government.
    I now turn to my colleague, Mr. Watt, the distinguished 
Ranking Member of the Subcommittee and ask him if he has any 
opening remarks?
    Mr. Watt. Thank you, Mr. Chairman.
    Mr. Cannon. The gentleman is recognized for 5 minutes.
    Mr. Watt. Thank you, Mr. Chairman, for convening this 
hearing today. It must be my day to deal with privacy and 
identity theft issues. I'll tell you what has transpired today.
    I was seated in a meeting with representatives from various 
Government agencies, one of which was Social Security. And one 
of their complaints was that Government work is being 
contracted out to private companies who don't have the kind of 
responsibility for overseeing privacy and preventing identity 
left. That meeting lasted for about 20, 30 minutes. During that 
meeting three things happened.
    One, I got placed on my desk the comments for this meeting 
here this afternoon, which I haven't had a chance to review 
very thoroughly but I'm going to take a stab at them when I get 
back to the formal part of this presentation.
    Second, I got placed on my desk a message from a newspaper 
reporter at the Charlotte Observer--which is in my 
Congressional district in Charlotte, North Carolina--with an 
attached article which says a Charlotte temporary employment 
agency left more than 20 boxes filled with hundreds of job 
applications on the curbside for the better part of a day 
Sunday and Monday. And goes on to ask me if I have any comments 
to make about that.
    Then I got placed on my desk, during that same meeting, a 
letter from our minority leader asking me to join in a letter 
to the president expressing concerns about the way the CAPPS II 
program is being--playing itself out and asking the 
Administration to pay more attention to the dissemination of 
personal information.
    This is a multidimensional problem, not only Government 
information that we are gathering but private information. 
We've tried to attack it in various compartmentalized ways 
through Fair Credit Reporting Act in the Financial Services 
Committee on which I sit, through various things in this 
Judiciary Committee, but this is--this already difficult issue 
has been complicated by the events of September 11. And since 
then our country has been confronted with the dual aspiration 
of ensuring the security of our homeland and at the same time 
preserving and securing the Civil Rights and liberties that 
make our homeland free and unique.
    The creation of the Department of Homeland Security was 
historic. Homeland Security Act of 2002 created an agency with 
the primary responsibility of preventing terrorist attacks in 
the United States, reducing our vulnerability to such attacks, 
minimizing damage due to any attack, and assisting in our 
ability to recover from those attacks.
    My concern here today however is that the Department not be 
so vigilant in its terrorist prevention and terrorist detection 
duties that it undermines our individual freedoms.
    Just last May the GAO described the Department of Homeland 
Security's responsibilities to include ``the coordination and 
sharing of information related to threats of domestic terrorism 
within the Department and with and between other Federal 
agencies, State and local governments, the private sector, and 
other entities''.
    The report recognized that to accomplish this mission the 
Department of Homeland Security must access, receive and 
analyze law enforcement information, intelligence information, 
and other threat incident and vulnerability information from 
Federal and non-Federal sources.
    Recent newspaper reports indicate that questionable 
information sharing occurred between JetBlue and Northwest 
Airlines and law enforcement in order to implement the CAPPS II 
Computer-Assisted Passenger Prescreening System designed to 
prescreen airline passengers. Despite the existence of a 
Privacy Officer within the Department of Homeland Security, the 
JetBlue and Northwest Airline collaboration with the Government 
raises serious privacy issues because although these private 
entities may have their own privacy policies they are not 
subject to the constraints of the Privacy Act.
    This circumstance may lead to a gaping hole in safeguarding 
the improper dissemination of personal information. This is a 
hole that I personally tried to plug last year during the 
Judiciary Committee's consideration of H.R. 4598, the Homeland 
Security Information Sharing Act. That bill, which did pass the 
House and has not passed the Senate, would have authorized 
Federal, State and local entities, including private actors, to 
share information to the fullest extent possible in the 
interest of national security. During its consideration I 
offered an amendment to the bill that would have placed 
constraints on the dissemination of personal information which 
would have prohibited any unauthorized use and that amendment 
passed in this Committee.
    As we listen to the testimony today, I am interested in 
determining whether it would be useful to resurrect at least 
the spirit of H.R. 4598 by ensuring that American citizens and 
those traveling within our borders are fully aware of how their 
personal information will be collected, used, and disseminated 
by whatever source in the name of national security.
    And that, coincidentally, is exactly what the letter from 
our minority leadership is encouraging the president to focus 
his attention on and I'm sure that new Privacy Officer will 
be--it will filter to you at some point.
    So we are delighted to have you here and I appreciate the 
Chairman calling this hearing. He's known for getting on top of 
these things when they are topical and interesting and covering 
many fronts and being in front of the curve, not only reactive 
but being proactive.
    So I appreciate the Chairman getting this convened today, 
look forward to the witnesses' testimony and to the markup.
    Mr. Cannon. I thank the gentleman for those kind comments 
and I appreciate his bipartisan support. These are important 
issues that we need to actually move on.
    Without objection, the gentleman's entire statement will be 
placed in the record.
    Also, without objection, all Members may place their 
statements in the record at this point. Any objection?
    Hearing none, so ordered.
    Without objection, the Chair will be authorized to declare 
recesses of the Subcommittee today at any point.
    Hearing none, so ordered.
    I also ask unanimous consent that Members have five 
legislative days to submit written statements for inclusion in 
today's hearing record. So ordered.
    Are there further opening statements? Mr. Coble?
    Mr. Coble. No opening statement, Mr. Chairman.
    Mr. Cannon. Thank you.
    I'm pleased to introduce the witnesses for today's hearing. 
Our first witness is Nuala O'Connor Kelly, the Chief Privacy 
Officer of the Department of Homeland Security. Ms. O'Connor 
Kelly was appointed to her current position on April 16, 2003. 
Just prior to her appointment she served as the Chief Privacy 
Officer at the Commerce Department.
    Before entering public service, Ms. O'Connor Kelly was the 
Vice President for Data Protection and Chief Privacy Officer 
for Doubleclick, an online media services company, that she 
rescued with her privacy policies. I add that as a personal 
note. In that capacity, Ms. O'Connor Kelly established that 
company's first data protection department and was responsible 
for instituting privacy protection policies and procedures for 
Doubleclick, its clients and partners.
    Ms. O'Connor Kelly received her undergraduate degree from 
Princeton University and masters degree in education from 
Harvard University and a law degree from Georgetown University 
Law Center.
    Our second witness is the Honorable James Gilmore, the 
former Governor of the Commonwealth of Virginia. Governor 
Gilmore, as you will recall, has previously shared with this 
Subcommittee his vast expertise on technology and Internet 
policy matters for which we are deeply grateful.
    Today Governor Gilmore appears on behalf of USA Secure 
Corporation, a nonpartisan, not-for-profit think tank which he 
founded. USA Secure is comprised of technology and 
infrastructure companies that are affected by and participate 
in homeland security. It provides a forum for its members to 
develop integrated solutions regarding homeland security 
issues.
    Of particular relevance to today's hearing is Governor 
Gilmore's service as the Chairman of the Congressional Advisory 
Panel to Assess the Capabilities for Domestic Response to 
Terrorism Involving Weapons of Mass Destruction, all also known 
as the Gilmore Commission. The Commission was established by 
Congress to assess Federal, State and local Government's 
capabilities to respond to the consequences of a terrorist 
attack. The Gilmore Commission, which recently submitted its 
final report to the President and Congress, was influential in 
developing the Department of Homeland Security.
    Governor Gilmore received his undergraduate degree in 
foreign affairs from the University of Virginia and, after a 3-
year tour as a U.S. Army counterintelligence agent in West 
Germany, obtained his law degree at the University of Virginia 
Law School.
    He continues to demonstrate his dedication to homeland 
security and technology issues as a partner of the law firm of 
Kelley, Drye, Warren here in Washington, D.C.
    Our next witness is Professor Sally Katzen of the 
University of Michigan Law School. We understand the Professor 
Katzen appears today solely in her personal capacity and not on 
behalf of the University of Michigan or any other entity.
    Prior to joining academia in 2001, Professor Katzen was 
responsible for developing privacy policy for the Clinton 
administration for nearly a decade. As the Administrator of the 
Office of Information and Regulatory Affairs of the Office of 
Management and Budget, she was effectively the chief 
information policy official for the Federal Government. Her 
responsibilities included developing the Federal privacy 
policies, including implementation of the 1974 Privacy Act.
    Professor Katzen later served as Deputy Assistant to the 
President for Economic Policy and Deputy Director of the 
National Economic Counsel in the White House. Thereafter she 
became the Deputy Director for Management at OMB.
    Before embarking on her public service career, Professor 
Katzen was a partner in the Washington, D.C. law firm of 
Wilmer, Cutler and Pickering, where she specialized in 
regulatory and legislative matters.
    Professor Katzen graduated magna cum laude from Smith 
College and magna cum laude from the University of Michigan Law 
School where she was editor-in-chief of the Law Review. 
Following graduation from law school, she clerked for Judge J. 
Skelly Wright of the United States Court of Appeals for the 
District of Columbia Circuit
    Our final witness is Jim Dempsey, a Judiciary Committee 
alum who we are pleased to welcome back. Mr. Dempsey is 
currently the Executive Director of the Center for Democracy 
and Technology where he specializes in privacy and electronic 
surveillance issues.
    Before joining the Center, Mr. Dempsey was the Deputy 
Director of the Center for National Security Studies and also 
served as Special Counsel to the National Security Archive, a 
non-governmental organization that uses the Freedom of 
Information Act to gain the declassification of documents 
pertaining U.S. foreign policy.
    From 1985 to 1994 Mr. Dempsey was Assistant Counsel to the 
House Judiciary Committee on Civil and Constitutional Rights. 
Mr. Dempsey obtained his undergraduate degree from Yale College 
and his law degree from Harvard Law School.
    We have a very distinguished panel. I extend to each of you 
my warm regards and appreciation for your willingness to 
participate in today's hearing.
    In light of the fact that your written statements will be 
included in hearing record, I request that you limit your oral 
remarks to 5 minutes. Accordingly, please feel free to 
summarize and highlight the salient points of your testimony. 
And you have a light on--I think you're all familiar with this 
lighting system. It goes yellow when you have a minute left. 
When it goes red you don't have to stop, but we'd appreciate it 
if you'd sort of wrap up, if you could, so that Members have 
the opportunity of asking questions.
    After all the witnesses have presented their remarks, the 
Subcommittee Members, in the order that they arrive, will be 
permitted to ask questions of the witnesses subject also to the 
5 minute limit.
    Ms. O'Connor Kelly, would you now proceed with your 
testimony?

   STATEMENT OF NUALA O'CONNOR KELLY, CHIEF PRIVACY OFFICER, 
 UNITED STATES DEPARTMENT OF HOMELAND SECURITY, WASHINGTON, DC

    Ms. O'Connor Kelly. Thank you, Mr. Chairman.
    Chairman Cannon, Congressman Watt, and Members of the 
Subcommittee, it is my distinct honor to testify before you 
today on the activities of the United States Department of 
Homeland Security's Privacy Office, which I am privileged----
    Mr. Cannon. Ms. O'Connor Kelly, if you wouldn't mind, we 
will restart your clock, but I think we have a reporting 
quorum. So consistent with our earlier orders, we are going to 
recess this hearing for a period and try and report out this 
bill. So we will go at this moment to our markup.
    Do any of you have--I don't think this is going to take a 
long period of time. Do any of you have significant other 
obligations that we need to meet?
    Thank you. If you don't mind then, we will be recessed from 
the hearing and we will open our markup.
    [Whereupon, at 3:20 p.m., the hearing was recessed, to 
reconvene this same day at 3:35 p.m.]
    Mr. Cannon. And now, Ms. O'Connor Kelly, we appreciate your 
indulgence and the indulgence of the panel.
    I would now like to be informed about what is going on in 
the new world of privacy. Thank you.
    If you would like to proceed, we will reset the clock.
    Ms. O'Connor Kelly. Thank you, Mr. Chairman, and thank you 
Congressman Watt and all the Members of the Committee.
    It is a great pleasure and an honor to be with you today to 
talk about the Department of Homeland Security's Privacy 
Office, which I am privileged to lead as the Department's first 
Privacy Officer.
    The creation of the Department of Homeland Security and its 
many programs raise no shortage of important privacy and civil 
liberty issues for this Nation to address. The Department, led 
by Secretary Ridge, and this Administration, led by President 
Bush, are committed to addressing these critical issues as we 
seek to strengthen our homeland. A crucial part of this 
commitment is the mission of the Privacy Office at the 
Department of Homeland Security.
    Before this office officially opened its doors, Secretary 
Ridge articulated his vision for our office, stating that the 
Privacy Office will be involved from the very beginning with 
every policy initiative and every program initiative that we 
consider, to ensure that our strategy and our actions are 
consistent with not only the Federal privacy safeguards already 
on the books but also with the individual rights and civil 
liberties protected by our laws and our Constitution.
    As Members of this Subcommittee are uniquely aware, the 
enabling statute for the Department of Homeland Security 
directs the Secretary to appoint a senior official in the 
Department to assume primary responsibility for privacy policy. 
That legislation reflects, I believe, a growing sensitivity and 
awareness on the part of our citizens regarding personal data 
flows in the public and in the private sector and the 
particular concerns surrounding this melding of 22 former 
separate agencies along with the unique mission and data 
collection activities that each of those agencies brings.
    The DHS Privacy Office works to promote best practices with 
respect to privacy and to infuse fair information principles 
and practices into the DHS culture. A major goal for my tenure 
as Chief Privacy Officer is to operationalized privacy 
throughout the Department. We are doing this not only by 
working with Secretary Ridge and our senior policy leadership 
of the various agencies and directorates across the Department 
but also with our Privacy Act and Freedom of Information Act 
teams, as well as the operational, policy, and program staff 
throughout the Department.
    Through internal educational outreach and the establishment 
of internal clearance procedures and milestones for program 
development we are helping this Department consider privacy 
whenever developing new programs or revising existing ones. We 
are evaluating the use of new technologies to ensure that 
privacy protections are considered in the development and 
implementation of these programs at each stage.
    In this process Departmental professionals have become 
educated about the need to consider and the framework for 
considering that privacy impact of technology decisions. We are 
reviewing Privacy Act systems notices before they are sent 
forward and ensuring that we collect only those records that 
are necessary to support the Department's mission.
    We also guide Departmental agencies in developing 
appropriate privacy policies for their programs and serve as a 
resource for any questions that arise concerning privacy, 
information collection, or disclosure.
    And the Privacy Office, of course, works closely with 
various Departmental policy teams, the Office of General 
Counsel, the Chief Information Officers to ensure that the 
mission of the Privacy Office is reflected in all DHS 
initiatives.
    The Privacy Office also seeks to anticipate and to satisfy 
public needs and expectations by providing a crucial link 
between those outside the Department who are concerned about 
the privacy impact of the Department's initiatives and those 
inside the Department who are diligently working to achieve the 
Department's mission.
    Our role is not only to inform, to educate, and to lead 
privacy practice within the Department but also to serve as a 
receptive audience to those outside the Department who have 
questions or concerns about the Department's operations. To 
that end, the Privacy Office has engaged in consistent and 
substantial outreach efforts to members of the advocacy 
community, industry representatives, other U.S. agencies, 
foreign governments, and most importantly, the American public. 
Our Government and our agency are grounded on principles of 
openness and accountability tempered, of course, by the need to 
preserve the confidentiality of the most sensitive personal 
commercial and Governmental information.
    Our work at the Department Privacy Office is proving that 
it is, in fact, possible to achieve both responsible privacy 
practices and the critical mission of the Department of 
Homeland Security.
    Issues of privacy and civil liberties are most successfully 
navigated when the necessary legal, policy, and technological 
protections are built into the systems or programs from the 
very beginning. I am often asked whether I view my job as a 
privacy advocate as at odds with the mission of the Department. 
And the answer is, without hesitation, no. As Secretary Ridge 
has articulated on many occasions, the Department of Homeland 
Security's mission is more than just counterterrorism and more 
than just the protection of people and places and things. It is 
the protection of our liberties and our way of life.
    That way of life includes the ability to engage in public 
life with dignity, autonomy, and a general expectation for 
respect for personal privacy. Thus, the protection of privacy 
is neither an adjunct nor the antithesis of the mission of the 
Department of Homeland Security. Privacy protection is, in 
fact, at the core of that mission.
    I thank you for your time and the opportunity to testify 
before this important Committee and I look forward to hearing 
my colleagues' testimony and to answering your questions.
    Thank you.
    [The prepared statement of Ms. O'Connor Kelly follows:]

               Prepared Statement of Nuala O'Connor Kelly

    Chairman Cannon, Ranking Member Watt, Members of the subcommittee, 
and distinguished colleagues on this panel, it is an honor to testify 
before you today on the activities of the United States Department of 
Homeland Security's Privacy Office, which I am privileged to lead as 
the first Chief Privacy Officer of the Department of Homeland Security.
    The protection of privacy, of the dignity of the individual, is not 
a value that can be added on to this or any other organization later, 
and that is why I am so pleased to have been here from almost the very 
beginning. This value is one that must be embedded in the very culture 
and structure of the organization. I know that we can and will succeed 
in this--not only because our leadership believes in protecting the 
sanctity of the individual, but also because our over 180,000 employees 
are also great Americans, who believe in and act on these values--for 
themselves, their neighbors, and their children--each day.

                ESTABLISHMENT OF THE DHS PRIVACY OFFICE

    The creation of the Department of Homeland Security and its many 
programs raise no shortage of important privacy and civil liberties 
issues for this nation to address. This Department, led by Secretary 
Tom Ridge, and this Administration, led by President Bush, are 
committed to addressing these critical issues as they seek to 
strengthen our homeland. A crucial part of this commitment is support 
for the creation and the mission of the Privacy Office at the 
Department of Homeland Security. Secretary Ridge articulated his vision 
for this office, stating that the privacy office ``will be involved 
from the very beginning with every policy initiative and every program 
initiative that we consider,'' to ensure that our strategy and our 
actions are consistent with not only the federal privacy safeguards 
already on the books, but also ``with the individual rights and civil 
liberties protected by our laws and our Constitution.''
    As Members of this subcommittee are uniquely aware, the enabling 
statute for the Department of Homeland Security contains Section 222, 
which directs the Secretary to appoint a senior official in the 
Department to assume primary responsibility for privacy policy. This 
includes conducting and oversight of formal Privacy Impact Assessments 
to ``assure that the use of technologies sustain, and do not erode, 
privacy protections relating to the use, collection, and disclosure of 
personal information.'' This office also oversees the Department's 
compliance with the Privacy Act of 1974 and the Privacy Impact 
Assessment requirements of the Electronic Government Act of 2002, and 
is directed to ``evaluate legislative and regulatory proposals 
involving collection, use, and disclosure of personal information by 
the Federal Government.'' Uniquely and importantly, under the enabling 
statute, the DHS Chief Privacy Officer provides an annual report to 
Congress on the activities of the Department that affect privacy, 
including complaints of privacy violations, implementation of the 
Privacy Act, internal controls, and other matters.

          KEY LEGAL FRAMEWORKS ENFORCED BY THE PRIVACY OFFICE

    One of the primary legal frameworks underlying the mission of the 
DHS Privacy Office is, obviously, the federal Privacy Act of 1974. The 
Privacy Act, 5 U.S.C. Sec. 552a, provides a code of fair information 
practices that governs the collection, maintenance, use, and 
dissemination of personal information by federal agencies. Emanating 
from concerns about the ability to aggregate personal information--
partly due to new technologies like mainframe computers of that day--
this law provides substantial notice, access, and redress rights for 
citizens and legal residents of the United States whose information is 
held by some part of the executive branch of the federal government. 
The law provides robust advance notice, through detailed ``system of 
records'' notices, about the creation of new technological or other 
systems containing personal information. The law also provides the 
right of access to one's own records, the right to know and to limit 
other parties with whom the information has been shared, and the right 
to appeal determinations regarding the accuracy of those records or the 
disclosure of those records. The Privacy Act is our country's 
articulation of Fair Information Principles; the Act both protects the 
information of our citizens and also provides our citizens rights to 
access that data.
    Under the Freedom of Information Act, 5 U.S.C. Sec. 552, the 
principle that persons have a fundamental right to know what their 
government is doing is enforced on a daily basis. Almost any person at 
any time has the right to query a federal agency for documents and 
records. Our government and our agency are grounded on principles of 
openness and accountability, tempered, of course, by the need to 
preserve the confidentiality of sensitive personal, commercial, and 
governmental information. The Freedom of Information Act is the primary 
statute that attempts to balance these countervailing public concerns. 
A robust FOIA/PA program is a critical part of any agency's fundamental 
processes; it helps to provide assurance to the public that, in 
pursuing its mission, an agency will also pursue balanced policies of 
transparency and accountability while preserving personal privacy. The 
U.S. federal government will spend hundreds of millions of dollars 
processing and responding to FOIA requests next year, and thousands of 
federal workers will spend all or part of their day compiling responses 
to those requests. Our agency alone has over 300 staff members across 
the Department who work full or part-time on Privacy Act and FOIA 
issues.
    This past fall, the Office of Management and Budget released its 
guidance under Section 208 of the E-Government Act of 2002--which 
mandates Privacy Impact Assessments for all federal agencies when there 
are new collections of, or new technologies applied to, personally 
identifiable information. This, really a third pillar of the privacy 
framework at the federal level reflects, once again, a growing reliance 
on technology to move data--both in government spaces and on the 
Internet. With the addition of the privacy provisions of the E-
Government Act to existing privacy protections, our citizens now 
benefit from a comprehensive framework within which government 
considers privacy in the ordinary course of business. The Act and 
underlying guidance synthesize numerous prior statements and guidance 
on privacy practices and notices, and will assist privacy practitioners 
in prioritizing their efforts. In particular, the guidance provides 
direction on the content of privacy policies and on the machine-
readability of privacy policies.
    Further, the act outlines the parameters for privacy impact 
assessments. Although in use by some agencies already, generally 
privacy impact assessments are a new and important tool in the toolbelt 
of privacy practitioners across the federal government. These new 
requirements formalize an important principle: that data collection by 
the government should be scrutinized for its impact on the individual 
and that individual's data . . . and ideally before that data 
collection is ever implemented. The process, the very exercise of such 
scrutiny, is a crucial step towards narrowly tailoring and focusing 
data collection towards the core missions of government. This practice 
should provide even greater awareness, both by those seeking to collect 
the data and those whose data is collected, of the impact on the 
individual and the purpose of the collection.
    I am pleased to have been a small part of the discussions towards 
the development of guidance on privacy impact assessments. These new 
requirements set the bar high for privacy practitioners. These 
requirements also reflect, I believe, a growing sensitivity and 
awareness on the part of our citizens regarding personal data flows in 
the public and private sectors. I believe that this guidance will allow 
federal agencies to respond to citizens' concerns about these 
activities and also to be current with, or perhaps even slightly ahead 
of, the evolution of privacy practices in the private sector.
    Under the Privacy Act, in concert with the Freedom of Information 
Act and the E-Government Act, citizens, legal residents, and visitors 
to the United States have been afforded almost unequalled transparency 
into the federal government's activities and the federal government's 
use of personal information about them. A robust FOIA/PA program is 
imperative to provide the public with assurances that any information 
DHS collects is being maintained consistent with all legal and 
regulatory requirements.

OPERATIONALIZING PRIVACY THROUGHOUT THE DEPARTMENT OF HOMELAND SECURITY

Best Practices through Management Leadership
    The DHS Privacy Office works to promote best practices with respect 
to privacy and infuse respectful information privacy principles and 
practices for all employees into the DHS culture. A major and 
substantial goal at the outset for my tenure is to `operationalize' 
privacy awareness and best practices throughout DHS, working not only 
with Secretary Ridge and our senior policy leadership of the various 
agencies and directorates of the department, but also with our Privacy 
Act and FOIA teams, as well as operational staff across the Department.

Consistent Policies and Education Efforts
    Through internal educational outreach and the establishment of 
internal clearance procedures, we are sensitizing DHS directorates and 
components to consider privacy whenever developing new programs or 
revising existing ones. We are reviewing new technologies to ensure 
that privacy protections are incorporated in the development and 
implementation of these new systems. Our headquarters staff has been 
reviewing all Privacy Impact Assessments being conducted throughout the 
Department. In this process, DHS professionals have become educated 
about to the need to consider--and the framework for considering--the 
privacy impact of their technology decisions. We are reviewing Privacy 
Act systems notices before they are sent forward and ensuring that we 
collect only those records that are necessary to support our mission. 
We also guide DHS agencies in developing appropriate privacy policies 
for their programs and serve as a resource for any question that may 
arise concerning privacy, information collection or disclosure. We work 
closely with various DHS policy teams, the Office of the General 
Counsel, and the Chief Information Officers to ensure that the mission 
of the Privacy Office is reflected in all DHS initiatives. And of 
course we also work in concert with the Department's Office for Civil 
Rights and Civil Liberties, which is the other statutorily mandated 
office at DHS Headquarters with an individual liberties focus.

Integrated Privacy and Disclosure Mandates
    The work of the Privacy Office includes not only the statutory 
Privacy Act and Privacy Impact Assessement work, but also integrates 
Freedom of Information Act oversight for the Department. This 
additional responsibility was redelegated to the Privacy Office last 
summer by Secretary Ridge, in recognition of the close connection 
between privacy and disclosure laws, and the functional synergies of 
the work of our Privacy Act and FOIA specialists across the Department.

                TRANSPARENCY AND OUTREACH TO THE PUBLIC

    The DHS Privacy Office also seeks to anticipate and satisfy public 
needs and expectations, by providing a crucial link between those 
outside DHS who are concerned about the privacy impact of the 
Department's initiatives, and those inside the Department who are 
diligently working to achieve the Department's mission. Our role is not 
only to inform, educate, and lead privacy practice within the 
Department, but also to serve as listeners and as a receptive audience 
to those outside the Department who have questions or concerns about 
the Department's operations. To that end, my office has engaged in 
consistent and substantial outreach efforts to members of the advocacy 
community, industry representatives, other U.S. agencies, foreign 
governments, and most importantly, the American public, not only to 
inform and educate those constituencies, but also, even more 
importantly, to hear their concerns, to share those concerns with the 
Department's leadership, and to see that those concerns are addressed 
in our programs and in the development of our policies. Recent coverage 
of our privacy program, in particular our Privacy Impact Assessment, or 
PIA, of the US-VISIT program, demonstrated how information-collection 
efforts, especially those employing new or unfamiliar technology, can 
be done in a privacy-sensitive way. Operationally, this particular PIA 
demonstrated an effective internal system whereby staff from across the 
department worked together to create a document that was at once 
technologically detailed and also reader-friendly.

                         KEY POLICY CHALLENGES

The Use of Private-Sector Data
    I can think of no more compelling public policy issue, particularly 
one that affects the privacy of our citizens and visitors to this 
country, than the sharing of personal information between the public 
and private sector. It is one that has been successfully--and less 
successfully--navigated by other agencies within the Federal 
government, and it is one that we examine and grapple with in programs 
within every single directorate and agency within the Department of 
Homeland Security almost every day.
    It is the Privacy Office's role to facilitate this conversation 
about and this examination of the responsible uses of information by 
government agencies within DHS. That role sometimes requires us to 
encourage, and even force conversation between those who label 
themselves as being concerned only with privacy, and those who consider 
themselves all about security. I challenge those who feel the need to 
be one or the other. It is, in fact, possible, to achieve both 
responsible privacy practices and achieve the mission of the Department 
of Homeland Security. Issues of privacy and civil liberties are most 
successfully navigated when the necessary legal and policy protections 
are built in to the systems or programs from the very beginning--both 
in the intelligent use of technology, and in the responsible execution 
of programs. Further, clear rules--both in the private sector and in 
the public sector--are necessary to ensure that such information 
sharing is done in a legitimate, respectful, and limited fashion.

International Cooperation
    A key focus of the Privacy Office's work has been to engage the 
data protection authorities internationally. Privacy professionals the 
world over share a common interest in assuring public trust in 
government operations by encouraging transparency, as well as respect 
for fair information principles such as collection limitation, purpose 
specification, use limitation, data quality, security safeguards, 
openness, participation, and accountability. Our office has 
participated in the meetings of the International Association of Data 
Protection and Privacy Commissioners, although the office is not 
recognized at this time as an accredited data protection authority. We 
have also worked cooperatively with data protection authorities, or 
DPAs, to enable cross-border dispute resolution of personal data 
issues. Our office is both a point of appeals for complaints about our 
various directorates' programs, and also a point of contact for our 
international counterparts, whether acting to communicate policy 
concerns or individual citizens' complaints.

              BALANCING THE NEED FOR TRANSPARENCY AND THE 
                    NEED FOR SECURITY IN OPERATIONS

    Perhaps the most difficult issue in a law enforcement or counter-
terrorism context is the need to afford transparency and access to 
information for individuals, while also safeguarding information that 
is essential to an ongoing investigation of some type. Our office seeks 
to assist the agency in achieving this balance in a number of ways. 
First, rules and procedures for accessing information must be clear, 
easily attainable by individuals, and easily understood. Second, 
determinations that information is sensitive or otherwise protected 
must be narrowly tailored and well grounded. Third, systems must be in 
place whereby individuals can be assisted in correcting information 
that may impact them in some way, even when that information is deemed 
protected. An example of this is the use of citizen advocates or 
ombudsmen, where by government employees who have security clearance or 
access to information act on behalf of individuals to correct 
misidentifications or incorrect information that is associated with an 
individual. In addition, these processes must be efficient and 
minimally burdensome on the individual, and must provide for an appeal 
or further redress process that is adequately independent to ensure 
fairness for the individual. These processes exist in certain places 
within our Department, and should be implemented where personal 
information is collected by the government and used in a way that 
impacts the individual. The DHS Privacy Office plays a role in 
performing that independent review and appeal process for our 
directorates and citizens.

                       THE DEFENSE OF PRIVACY ACT

    The DHS Privacy Office applauds the subcommittee for its interest 
in privacy issues, and even more, privacy practices across the federal 
government. We in government are often quick to point to private-sector 
lapses in privacy policy, and we should be equally vigilant about our 
own use of personal data. While the federal government benefits from 
the requirements of the Privacy Act of 1974, it is also true that new 
technologies have allowed data sharing in new and perhaps unexpected 
ways. The Privacy Impact Assessment requirements of the E-Government 
Act of 2002 recognize these new technological challenges and seek to 
provide reader-friendly information about such data collections in a 
new and perhaps more technologically savvy fashion.
    The proposed Defense of Privacy Act shares many similarities with 
the PIA requirements under the E-Government Act, ones that are worth 
noting, such as the need for a ``senior agency official with primary 
responsibility for privacy policy.'' While the need for a statutory 
privacy officer at DHS may be virtually unique in the federal 
government, given the agency's size and the co-mingling of parts of 
more than 22 former federal agencies, the need for senior policy 
leadership at any agency that affects public data is certainly 
recognized.
    Further, the Act does clarify the timing of PIAs, to be both a 
prospective document, issued at the NPRM stage, and a final document, 
issued in response to public comments. We at DHS have, and fully intend 
to continue to publish PIAs for public comment and we believe that this 
public dialogue is essential to our understanding of public concerns 
about DHS programs. I should note that the Administration continues to 
review this legislation, and we may have additional comments at a later 
time.

                       INTERNAL AND EXTERNAL ROLE

    I am often asked whether I view my job as a privacy advocate and 
thus at odds with the activities of the Department. The answer is 
absolutely not. As Secretary Ridge has articulated on many occasions, 
the Department of Homeland Security's mission is more than just 
counter-terrorism, more than just the protection of people and places 
and things. It is also the protection of our liberties and our way of 
life, and that includes the ability to engage in public life with 
dignity, autonomy, and a general expectation of respect for personal 
privacy. Thus, the protection of privacy is neither an adjunct nor the 
antithesis to the mission of the Department of Homeland Security. 
Privacy protection, in fact, is at the core of that mission.
    I am very much in agreement with the statutory definition of my 
office's position as being both ``within'' and ``without'' the 
Department of Homeland Security. As part of the department, we are able 
to serve as educators, as leaders, and as full participants in the 
policy direction of important programs. And as outsiders, we are able 
to turn a critical eye on the most controversial and the most mundane 
aspects of the Department's operations. But I do not position my office 
as the enemy of the mission of this department. Rather, I see it as 
crucial, fundamental to successfully achieving that mission.
    On a daily basis, I am aware of what it means to set parameters for 
the federal government's use of personal information--information that 
has been given to us in our capacity as the provider of services, as 
the caretaker of the public's physical security, and, most importantly, 
the custodian of the public's trust. Secretary Ridge has said that 
``Fear of government abuse of information . . . is understandable, but 
we cannot let it stop us from doing what is right and responsible.'' 
The antidote to fear, as he has said, ``is an open, fair, and 
transparent process that guarantees the protection and the privacy of 
that data.'' I commit to this Committee, to the American people whom we 
serve, and to our neighbors around the globe, that the Privacy Office 
is implementing this philosophy on a daily basis at the Department of 
Homeland Security.
    I thank you for your time, and for your interest in and support of 
the Department of Homeland Security Privacy Office.

    Mr. Cannon. Thank you.
    We appreciate the exceptional job you're doing and point 
out that it's actually historic since other people are going to 
look at what you have done. And I appreciate that attitude that 
things exactly work better when you think about the privacy 
implications in advance.
    Governor Gilmore, you'll be recognized for 5 minutes.

 STATEMENT OF HONORABLE JAMES S. GILMORE, III, PRESIDENT, USA 
               SECURE CORPORATION, WASHINGTON, DC

    Mr. Gilmore. Chairman Cannon and Ranking Member Watt and 
Members of the Subcommittee, thank you for the opportunity to 
be here to talk to you today. I'm acquainted with most all the 
Members and it's a pleasure to be back here with all of you 
again.
    A copy of my statement is put into the record, I believe.
    Mr. Chairman, I'm going to--I don't typically come back to 
Congress these days and read a lot of things. But I think I 
might this time because I put this together and well, I kind of 
like it. So I think I'm going to read it to you, at least part 
of it to you.
    I want to applaud the Committee for its leadership in this 
key area. It's been my privilege to serve as Chairman of the 
Advisory Panel to Assess Domestic Response Capabilities 
Involving Terrorism and Weapons of Mass Destruction for this 
Congress and reporting to this Congress and to the president 
for the past 5 years.
    In my private business and in my law practice I represent 
clients in homeland security matters. I'm president of an 
organization called USA Secure, which the Chairman made 
reference to. It's a private group of companies that come 
together and right now it's working mostly in bioterrorism 
issues.
    But my main attention over the past 5 years has been as 
Chairman of the Advisory Panel on behalf of this Congress.
    In the history of this panel we've produced five advisory 
reports to the Congress and to the president. The first report, 
in 1999, assessed the threat. The second report, in 2000, 
developed the fundamentals of a national strategy. The third 
report was dedicated to one of our members who died at the 
World Trade Center and went through key subject areas. The 
fourth report continued to fill out the idea of a national 
strategy focusing particularly on intelligence gathering and 
intelligence sharing.
    And the last report, which we just issued to you on 
December the 15 of this past year, tries to express some end 
vision about where we're trying to be and with regard to a 
national strategy, and also focuses a great deal on the issue, 
frankly, of the civil freedoms of the country because of an 
abiding concern of the panel as we go at the door on that 
issue.
    Today I'm here to speak to you for just a moment about the 
Privacy Officer position at the Department of Homeland 
Security. With the leadership of this Committee and the 
Subcommittee and the Department of Homeland Security, it has 
established a position of Privacy Officer in accordance with 
your statute. The foundation of the Congress' thinking was the 
protection of privacy will enhance the protection of American 
freedom. And as such, the primary responsibility for this 
policy includes oversight of the use of technologies to make 
sure they sustain and don't erode privacy protections, and puts 
a special emphasis on the Privacy Act.
    In its drive to make the country more secure the United 
States is applying all of its managerial and technological 
expertise to the creation of security in the homeland. Now 
these are enormously powerful forces because of this highly 
managerial society that we're in and also that we are the 
greatest technological society developed in the history of 
mankind as has been demonstrated by this gigantic war-making 
capacity that we have just seen.
    These twin forces of management and technology applied to 
homeland security can be applied to create a very secure 
society. But without institutional checks and balances it may 
override the traditional constitutional protections in this 
country.
    Many might argue that our traditional values of privacy, 
anonymity, and freedom are out of date and rendered obsolete by 
the terrorist threat.
    As chairman of the Advisory Panel and as a private citizen, 
I could not more emphatically disagree with the concepts that 
our freedoms must take second place as against the goal of 
creating greater security in the United States. The Congress, 
through this Committee and the Subcommittee, has agreed by 
enshrining the Privacy Officer within the statute establishing 
the Department of Homeland Security.
    Now I want to congratulate Secretary Ridge and his 
Department for supporting the Privacy Officer and empowering 
her as greatly as they have. Through the first Privacy Officer, 
Nuala O'Connor Kelly, this Department contains an instinct 
toward the creation of a culture of privacy that will allow the 
personal data of people to remain as confidential as possible 
within an environment of trying to weed out stealth attacks.
    Now we've got laws to protect the confidentiality of 
private citizens, but how does the American citizen know that 
his confidential and private information will not be made 
public or even disseminated to other agencies or other 
organizations to disempower him by impinging upon his private 
information? We live in the society of the anonymous but cannot 
continue the society of the empowered individual if the 
Government has the ability to take all of the private 
information and then to handle that information in such a way 
to expose personal information.
    We have long tradition of the independence of the American 
citizen. Now this can't continue either without systematic 
thinking and advocacy by someone in Government to preserve the 
freedoms and values of the American people. This is the duty of 
the Congress primarily and those of the Executive Branch who 
are so clearly dedicated to those freedoms. To provide that 
check institutionally within the Executive Branch, the Congress 
has provided for the Privacy Officer.
    I've worked very closely with Ms. O'Connor Kelly and the 
Department on these issues. Their dedication to the privacy of 
the American people is extraordinary. Their proactive ability 
to inject herself into these issues is essential and real. And 
the office provides a check against bulling ahead to create 
security while running over the privacies and the freedoms of 
the American people. And I congratulate the Committee, the 
Subcommittee, the Congress, and the Department for doing that.
    I urge upon the Congress we may be entering into a historic 
time in which bad decisions now may have consequences to the 
freedoms of the American people throughout the future. Privacy 
is an essential element of American liberty. The ability to 
keep personal information secure from prying eyes gives the 
mental empowerment to people to live as free citizens. Without 
that security American citizens are vulnerable and insecure, 
never knowing whether their personal information will be put 
into the hands of someone who will use that information against 
their interests, to make them weaker, or to destroy their 
individuality. Now this debate goes to the fundamental 
relationship between citizens and Government and ultimately 
will go beyond the simple issue of privacy.
    In closing, we're engaged in a debate of the American 
citizens' roll in his own society within the context of 
terrorism and security. Some societies have always been more 
comfortable with the citizen fitting into the entire community 
and being subject to identification cards, reporting 
requirements, stops by police, the presentation of papers, 
subjecting citizens to interrogation, checkpoints, frisking, 
and prying into the personal business of citizens more than the 
United States has ever been willing to tolerate.
    The fundamental question that the Congress must ask is 
whether this view of the individual is the future of the United 
States. The American tradition has been much more focused on 
the individual and his role in society. The individual has 
never been a creature of the Government or the entire State but 
relies upon the State to create an environment which he can 
grow on his own, establish his independence, and exist without 
the permission of the Government or the overall State.
    The question the Congress has to answer as they consider 
this and other pieces of legislation is did the enemy 
fundamentally change the American relationship because of its 
attacks on September 11? This is the debate that will go 
forward in the years ahead. But in the meantime, I congratulate 
this Congress and the Department for the creation of the 
Privacy Officer and giving her the ability to go into these 
issues and to safeguard these liberties in this highly risky 
moment in American history.
    [The prepared statement of Mr. Gilmore follows:]

          Prepared Statement of Governor James S. Gilmore, III

    Chairman Cannon, Ranking Member Watt, and members of the 
Subcommittee on Commercial and Administrative Law. The Committee on the 
Judiciary and the Subcommittee have played a major leadership role in 
including privacy considerations in the overall development of the 
Department of Homeland Security. I applaud the Committee for its 
leadership in this key area. It has been my privilege to serve as the 
Chairman of the Advisory Panel to Assess Domestic Response Capabilities 
for Terrorism Involving Weapons of Mass Destruction for the past five 
years. In my private business and law practice I represent clients in 
homeland security matters. I also am President of USA Secure, a group 
of private sector companies and non-profit organizations that come 
together to deal with significant homeland security issues. USA 
Secure's primary focus has been on bioterrorism issues to this date. My 
main attention in homeland security over the past five years has been 
as Chairman of the Advisory Panel on behalf of this Congress.

                         CONGRESSIONAL MANDATE

    The Advisory Panel was established by Section 1405 of the National 
Defense Authorization Act for Fiscal Year 1999, Public Law 105-261 
(H.R. 3616, 105thCongress, 2nd Session) (October 17, 1998). That Act 
directed the Advisory Panel to accomplish several specific tasks. It 
said:
    The panel shall--

        1.  Assess Federal agency efforts to enhance domestic 
        preparedness for incidents involving weapons of mass 
        destruction;

        2.  Assess the progress of Federal training programs for local 
        emergency responses to incidents involving weapons of mass 
        destruction;

        3.  Assess deficiencies in programs for response to incidents 
        involving weapons of mass destruction, including a review of 
        unfunded communications, equipment, and planning requirements, 
        and the needs of maritime regions;

        4.  Recommend strategies for ensuring effective coordination 
        with respect to Federal agency weapons of mass destruction 
        response efforts, and for ensuring fully effective local 
        response capabilities for weapons of mass destruction 
        incidents; and

        5.  Assess the appropriate roles of State and local government 
        in funding effective local response capabilities.

    That Act required the Advisory Panel to report its findings, 
conclusions, and recommendations for improving Federal, State, and 
local domestic emergency preparedness to respond to incidents involving 
weapons of mass destruction to the President and the Congress three 
times during the course of the Advisory Panel's deliberations--on 
December 15 in 1999, 2000, and 2001.
    The Advisory Panel's tenure was extended for two years in 
accordance with Section 1514 of the National Defense Authorization Act 
for Fiscal Year 2002 (S. 1358, Public Law 107-107, 107th Congress, 
First Session), which was signed into law by the President on December 
28, 2001. By virtue of that legislation, the panel was required to 
submit two additional reports--one on December 15 of 2002, and one on 
December 15, 2003.

                       ADVISORY PANEL COMPOSITION

    Mister Chairman, please allow me to pay special tribute to the men 
and women who serve on our panel.
    This Advisory Panel is unique in one very important way. It is not 
the typical national ``blue ribbon'' panel, which in most cases 
historically have been composed almost exclusively of what I will refer 
to as ``Washington Insiders''--people who have spent most of their 
professional careers inside the Beltway. This panel has a sprinkling of 
that kind of experience--a former Member of Congress and Secretary of 
the Army, a former State Department Ambassador-at-Large for 
Counterterrorism, a former senior executive from the CIA and the FBI, a 
former senior member of the Intelligence Community, the former head of 
a national academy on public health, two retired flag-rank military 
officers, a former senior executive in a non-governmental charitable 
organization, and the head of a national law enforcement foundation. 
But what truly makes this panel special and, therefore, causes its 
pronouncement to carry significantly more weight, is the contribution 
from the members of the panel from the rest of the country:

        <bullet>  Three directors of state emergency management 
        agencies, from California, Iowa, and Indiana, two of whom now 
        also serve their Governor's as Homeland Security Advisors

        <bullet>  The deputy director of a state homeland security 
        agency

        <bullet>  A state epidemiologist and director of a state public 
        health agency

        <bullet>  A former city manager of a mid-size city

        <bullet>  The chief of police of a suburban city in a major 
        metropolitan area

        <bullet>  Senior professional and volunteer fire fighters

        <bullet>  A senior emergency medical services officer of a 
        major metropolitan area

        <bullet>  And, of course--in the person of your witness--a 
        former State governor

    These are representatives of the true ``first responders''--those 
heroic men and women who put their lives on the line every day for the 
public health and safety of all Americans. Moreover, so many of these 
panel members are also national leaders in their professions: our EMS 
member is a past president of the national association of emergency 
medical technicians; one of our emergency managers is the past 
president of her national association; our law officer now is president 
of the international association of chiefs of police; our 
epidemiologist is past president of her professional organization; one 
of our local firefighters is chair of the terrorism committee of the 
international association of fire chiefs; the other is chair of the 
prestigious national Interagency Board for Equipment Standardization 
and InterOperability.
    Those attacks continue to carry much poignancy for us, because of 
the direct loss to the panel. Ray Downey, Department Deputy Chief and 
chief-in-charge of Special Operations Command, Fire Department of the 
City of New York, perished in the collapse of the second tower in the 
September 11 attack on the New York World Trade Center.

                             PANEL REPORTS

    In the history of the Panel, we have produced five advisory reports 
to the Congress and to the President of the United State. The first 
report in 1999 assessed threat. The second report in 2000 developed the 
fundamentals of a national strategy for combating terrorism. The third 
report, dedicated to Ray Downey who lost his life in the World Trade 
Center, filled out a national strategy in five key subject areas: state 
and local response capabilities, health and medical capabilities, 
immigration and border control, cybersecurity, and use of the military. 
Our fourth report in 2002, issued in the year following the 9/11 
attacks, further made recommendations on how to marshal the national 
effort towards a national strategy. It paid special attention to the 
needs of intelligence sharing and the proper structure for 
counterterrorism activities inside the United States. Our last report 
was issued about one and a half months ago, on December 15, 2003. That 
final report sought to express some end-vision and direction for the 
United States as it develops its national strategy and makes the 
country safer.

         FIFTH REPORT (2003)-- FORGING AMERICA'S NEW NORMALCY: 
             SECURING OUR HOMELAND, PRESERVING OUR LIBERTY

    Mister Chairman, the Advisory Panel released its fifth and final 
report on December 15, 2003. In that report, the strategic vision, 
themes, and recommendations were motivated by the unanimous view of the 
panel that its final report should attempt to define a future state of 
security against terrorism--one that the panel has chosen to call 
``America's New Normalcy.''

        <bullet>  That strategic vision offered by the panel reflects 
        the guiding principles that the panel has consistently 
        enumerated throughout its reports:

        <bullet>  It must be truly national in scope, not just Federal.

        <bullet>  It should build on the existing emergency response 
        system within an all-hazards framework.

        <bullet>  It should be fully resourced with priorities based on 
        risk.

        <bullet>  It should be based on measurable performance.

        <bullet>  It should be truly comprehensive, encompassing the 
        full spectrum of awareness, prevention, preparedness, response, 
        and recovery against domestic and international threats against 
        our physical, economic and societal well-being.

        <bullet>  It should include psychological preparedness.

        <bullet>  It should be institutionalized and sustained.

        <bullet>  It should be responsive to requirements from and 
        fully coordinated with State and local officials and the 
        private sector as partners throughout the development, 
        implementation, and sustainment process.

        <bullet>  It should include a clear process for strategic 
        communications and community involvement.

        <bullet>  It must preserve civil liberties.

    In developing the report, panel members all agreed at the outset 
that it could not postulate, as part of its vision, a return to a pre-
September 11 ``normal.'' The threats from terrorism are now recognized 
to be a condition that we must face far into the future. It was the 
panel's firm intention to articulate a vision of the future that 
subjects terrorism to a logical place in the array of threats from 
other sources that the American people face every day--from natural 
diseases and other illnesses to crime and traffic and other accidents, 
to mention a few. The panel firmly believes that terrorism must be put 
in the context of the other risks we face, and that resources should be 
prioritized and allocated to that variety of risks in logical fashion.
    The panel has proffered a view of the future--five years hence--
that it believes offers a reasonable, measurable, and attainable 
benchmark. It believes that, in the current absence of longer-term 
measurable goals, this benchmark can provide government at all levels, 
the private sector, and our citizens a set of objectives for readiness 
and preparedness. The panel did not claim that the objectives presented 
in this future view are all encompassing. Neither do they necessarily 
reflect the full continuum of advances that America may accomplish or 
the successes that its enemies may realize in the next five years. The 
view is a snapshot in time for the purpose of guiding the actions of 
today and a roadmap for the future.
    The panel said that America's new normalcy in January of 2009 
should reflect:

        <bullet>  Both the sustainment and further empowerment of 
        individual freedoms in the context of measurable advances that 
        secure the homeland.

        <bullet>  Consistent commitment of resources that improve the 
        ability of all levels of government, the private sector, and 
        our citizens to prevent terrorist attacks and, if warranted, to 
        respond and recover effectively to the full range of threats 
        faced by the nation.

        <bullet>  A standardized and effective process for sharing 
        information and intelligence among all stakeholders--one built 
        on moving actionable information to the broadest possible 
        audience rapidly, and allowing for heightened security with 
        minimal undesirable economic and societal consequences.

        <bullet>  Strong preparedness and readiness across State and 
        local government and the private sector with corresponding 
        processes that provide an enterprise-wide national capacity to 
        plan, equip, train, and exercise against measurable standards.

        <bullet>  Clear definition about the roles, responsibilities, 
        and acceptable uses of the military domestically--that 
        strengthens the role of the National Guard and Federal Reserve 
        Components for any domestic mission and ensures that America's 
        leaders will never be confronted with competing choices of 
        using the military to respond to a domestic emergency versus 
        the need to project our strength globally to defeat those who 
        would seek to do us harm.

        <bullet>  Clear processes for engaging academia, business, all 
        levels of government, and others in rapidly developing and 
        implementing research, development, and standards across 
        technology, public policy, and other areas needed to secure the 
        homeland--a process that focuses efforts on real versus 
        perceived needs.

        <bullet>  Well-understood and shared process, plans, and 
        incentives for protecting the nation's critical infrastructures 
        of government and in the private sector--a unified approach to 
        managing our risks.

    The panel's Future Vision 2009 included specifics details 
involving:

        <bullet>  State, Local, and Private Sector Empowerment

        <bullet>  Intelligence

        <bullet>  Information Sharing

        <bullet>  Training, Exercising, Equipping, and Related 
        Standards

        <bullet>  Enhanced Critical Infrastructure Protection

        <bullet>  Research and Development, and Related Standards

        <bullet>  Role of the Military

    To support its strategic vision, the panel offered a ``Roadmap for 
the Future,'' in which it made 20 substantive recommendations in six 
areas. (Advisory Panel recommendations are highlighted below in bold 
italics).

                   CIVIL LIBERTIES AT THE FOUNDATION

    The panel addressed the on-going debate in the United States about 
the tradeoffs between security and civil liberties. It concluded that 
history teaches, however, that the debate about finding the right 
``balance'' between security and civil liberties is misleading, that 
the traditional debate implies that security and liberty are competing 
values and are mutually exclusive. It assumes that our liberties make 
us vulnerable and if we will give up some of these liberties, at least 
temporarily, we will be more secure. It concluded that civil liberties 
and security are mutually reinforcing. The panel said that we must, 
therefore, evaluate each initiative along with the combined effect of 
all initiatives to combat terrorism in terms of how well they preserve 
all of the ``unalienable rights'' that the founders believed were 
essential to the strength and security of our nation--rights that have 
become so imbedded in our society and ingrained in our psyche that we 
must take special precautions, take extra steps, to ensure that we do 
not cross the line. It is more than the clearly defined protections in 
the Constitution--protections against unreasonable search and seizure; 
and against self-incrimination. It is also that less well-defined but 
nevertheless exceptionally important ``right to privacy'' that we have 
come to expect and that our judicial system has come increasingly to 
recognize. We recommend that the President establish an independent, 
bipartisan civil liberties oversight board to provide advice on any 
change to statutory or regulatory authority or implementing procedures 
for combating terrorism that has or may have civil liberties 
implications (even from unintended consequences).

                          THE PRIVACY OFFICER

    With the leadership of this Committee and Subcommittee, the 
Department of Homeland Security has established the position of Privacy 
Officer in accordance with statute. The foundation of the Congress's 
thinking was the protection of privacy will enhance the protection of 
American freedom. As such, the primary responsibility for the privacy 
policy includes an oversight of the use of technologies to make sure 
that they sustain and do not erode privacy protections relating to the 
collection and disclosure of personal information. It places special 
emphasis on the Privacy Act of 1974 and empowers the Privacy Officer to 
evaluate legislative and regulatory proposals involving the disclosure 
of personal information.
    In its drive to make the country secure, the United States is 
applying all of its managerial and technological expertise to the 
creation of national security in the homeland. These are enormously 
powerful forces because of the highly managerial society that the 
United States is today. The United States is also the greatest 
technologically developed society in the history of mankind as has been 
demonstrated by our gigantic war-making capacity. These twin forces of 
management and technology, applied to the homeland security issue, can 
be applied to create a very secure society, but without institutional 
checks and balances, may override our traditional Constitutional 
protections.
    Many might quickly argue that our traditional values of privacy, 
anonymity, and freedom are out of date and rendered obsolete by the 
terrorist threat. As Chairman of the Advisory Panel, and as a private 
citizen, I could not more emphatically disagree with the concept that 
our freedoms must take second place as against the goal of creating 
greater security in the United States. The Congress, through this 
Committee and Subcommittee, has agreed by enshrining the Privacy 
Officer within the statute establishing the Department of Homeland 
Security.
    I congratulate Secretary Ridge and his Department for supporting 
the Privacy Officer and empowering her so greatly. Through its first 
Privacy Officer, Nuala O'Connor Kelly, the Department contains an 
instinct towards the creation of a ``culture of privacy'' that will 
allow the personal data of people to remain as confidential as possible 
with an environment of trying to weed out stealth attacks by anonymous 
terrorists. We have laws to protect the confidentiality of private 
information of the American citizen; but, how does the American citizen 
know that his confidential and private information will not be made 
public or even disseminated to other governmental agencies or other 
organizations to disempower him by impinging upon his private 
information. We live in the culture of the anonymous leak, but we 
cannot continue the society of the empowered individual if government 
has the ability to take all of their private information and then to 
handle that information in such a way that citizens' private 
information is exposed.
    We have a long tradition of the independence of the American 
citizen. This, too, cannot continue without systematic thinking and 
advocacy by someone in government to preserve the freedoms and values 
of the American people. This is fundamentally and primarily the duty of 
the United States Congress--the elected representatives of the people 
and the members of the Executive Branch who are so clearly dedicated to 
those freedoms. To provide that check institutionally within the 
Executive Branch, the Congress has provided for the Privacy Officer. In 
the course of my official capacity and my private capacity I have had 
ongoing communications with Nuala O'Connor Kelly and the Department of 
Homeland Security on these issues. Ms. Kelly and her Office's 
dedication to the privacy of the American people is extraordinary and 
solid. Her proactive ability to inject herself into these issues and 
the policy formation process within the department is essential. The 
very existence of her Office provides a check against bulling ahead to 
create security while running over the privacies and freedoms of the 
American people, and I congratulate the Committee, the Subcommittee, 
and the United States Congress and the Department of Homeland Security 
for the foresight to build in this institutional check and balance.
    I urge upon the Congress that we may be entering into a historic 
time in which bad decisions now may have consequences to the freedoms 
of the American people throughout their future. Privacy is an essential 
element of American liberty. The ability to keep personal information 
secure from prying eyes gives the mental empowerment to people to live 
as free citizens. Without that security American citizens are 
vulnerable and insecure, never knowing whether their personal 
information will be put into the hands of someone who will use that 
information against their interests to make them weaker or to destroy 
their individuality. This debate, now, goes to the fundamental 
relationship between citizens and government, and should, and 
ultimately will, go far beyond just the issue of privacy.
    We are now engaged in a debate of the American citizen's role in 
his own society within the context of terrorism and security. Some 
societies have always been much more comfortable with the citizen 
fitting into the entire community and being subject to the entire 
community or the state. As such, identification cards, reporting 
requirements, stops by police, the presentation of papers, subjecting 
citizens to interrogation, checkpoints, frisking, and prying into the 
personal business of citizens has always been much more accepted in 
many countries of the world than in the United States.
    The fundamental question the Congress must ask is whether this view 
of the individual is the future of the United States. The American 
tradition has been much more focused on the individual and his role in 
society. The individual has never been a creature of the government or 
the entire state, but relies upon the state to create an environment in 
which he can grow on his own, establish his independence, and exist 
without the permission of the government or of the overall state.
    Did the enemy fundamentally redefine the American relationship 
because of its attacks on September 11, 2001? This is the policy debate 
for the years ahead as we reach for further security inside the 
homeland. In the meanwhile, the Privacy Officer and her office 
represent a fundamental protection while this debate is going on. By 
virtue of her official duty and position, she facilitates this dialogue 
with the American people and helps to safeguard their liberties in this 
highly risky moment in American history. It is my pleasure to be here 
today to endorse the role of the Privacy Officer and the offices 
established within the Department.

    Mr. Cannon. Thank you, Governor. We appreciate your service 
chairing that committee.
    Ms. Katzen?

 STATEMENT OF SALLY KATZEN, VISITING PROFESSOR, UNIVERSITY OF 
               MICHIGAN LAW SCHOOL, ANN ARBOR, MI

    Ms. Katzen. Thank you, Mr. Chairman, Ranking Member Watt, 
Members of the Committee. I appreciate very much your inviting 
me to testify today on a subject of interest to millions of 
Americans.
    As the Chairman noted, the views that I am expressing are 
my own and not those of any of the entities which may I may be 
affiliated.
    This Committee is indeed to be congratulated, not only for 
its leadership in creating a statutory Privacy Officer in the 
Department of Homeland Security, but also for being vigilant in 
its oversight of that office. Given the Committee's extensive 
experience in this area, it is not necessary to speak at length 
on the centrality of privacy in our country. It is a value that 
has been cherished, prized, protected and defended throughout 
our country and throughout history.
    Before September 11, 2001, privacy concerns polled off the 
charts. Since then Americans have acknowledged the importance 
of security and the need for combating terrorism, but their 
commitment to privacy has not been diminished. And some would 
argue, with much force, that if in protecting our Nation we're 
not able to preserve a free and open society for public lives 
with commensurate respect for the privacy of our personal 
lives, then perhaps the terrorists will have won.
    For that reason, again, I believe it was necessary and 
desirable to create a Privacy Officer within the Department of 
Homeland Security. Ms. Kelly has been there for approximately a 
year and we have heard this afternoon about her qualifications, 
which are genuinely impressive, and her activities to date, the 
earliest signs of which are indeed encouraging. And I will not 
try to repeat any of that.
    I draw two lessons from Ms. Kelly's tenure at DHS. First, 
the existence of a statutory Privacy Officer is highly 
beneficial. We now know that some attention is being paid to 
privacy concerns and steps are being taken to advance this 
important value that might otherwise not have occurred.
    The Chairman mentioned the CAPPS II project. There she 
inherited a Privacy Act notice that was issued last winter that 
was dreadful and she greatly improved it. In my written 
testimony I suggest some areas where additional work could, I 
believe should, be done to make it even better.
    I also talk about the US-VISIT program and again would 
refer you to my written testimony.
    But there is no doubt that the work that she has done has 
been good and is highly beneficial.
    Now as someone outside the Government, it is hard to know 
how influential she will be if, and it inevitably will happen, 
there is a direct conflict between what a program office wants 
and what she counsels against.
    Secretary Ridge has said all of the right things in 
supporting the Privacy Officer and we know he can do well in 
that regard. But we do not know what will happen when the 
rubber hits the road. This Committee, however, can further 
empower the Privacy Officer and lay the foundations for 
remedying any problems that may arise by maintaining its 
oversight and inquiring pointedly into how the Department 
handles these issues.
    The second lesson that I would take from the experience to 
date with the Privacy Officer at DHS is that there has been no 
diminution in the capacity of the Department to fulfill and 
pursue its mission. This is wholly consistent with what most 
Americans think, that national security and privacy are 
compatible.
    Now the fact that there is no evidence that the existence 
or any activity of the Privacy Officer has caused DHS to falter 
leads me to suggest that the Committee consider expanding the 
number of statutory privacy officers from one to 24, covering 
all of the major departments, or at least a handful of critical 
agencies.
    I mean, imagine the salutary effect that a privacy officer 
who is statutorily empowered could have at the Department of 
Justice, the Treasury, the IRS, DOD and VA, SSA, and HHS. All 
of these have some sort of privacy officer in place but they 
are, for the most part, processing Privacy Act complaints and 
not being involved in the underlying activities of their 
agencies and their departments.
    I would go one step further and suggest, indeed strongly 
urge, that you create a statutory privacy office at OMB, an 
office headed, as we called it in the Clinton administration, 
by the chief counselor for privacy. We had such an office and 
it served us well. In my written testimony I give you the range 
of ideas and subjects that have been--that were discussed.
    I believe it is unfortunate that the current Administration 
has chosen not to fill that position. As a result, there is no 
senior official in the Executive Office of the President who 
has privacy in his or her title or who is charged with 
oversight of Federal privacy practices, monitoring of 
interagency processes where privacy is implicated, or 
developing national privacy policies.
    Perhaps it was the absence of such a person that led the 
Bush administration to its initial lack of support for the 
designation of a Privacy Officer at DHS, which it has now come 
to embrace. Perhaps if someone had been appointed to the 
position, the Administration would not appear to some to be so 
tone deaf to privacy concerns in such areas as the PATRIOT Act 
or any other number of law enforcement issues that have 
appeared in the papers over the last several years.
    An office inside OMB can provide both institutional memory 
and sensitivity to combat the unfortunate tendency of some 
within Government to surveil first and think later.
    I have also in my written testimony a series of comments on 
the bill that I hope you will have a chance to review. And 
again, I thank you for your kind attention and look forward to 
responding to any questions you might have.
    [The prepared statement of Ms. Katzen follows:[

                   Prepared Statement of Sally Katzen

    Thank you for inviting me to testify today on a vitally important 
subject--``Privacy in the Hands of the Government.'' This Committee is 
to be congratulated, not only for its leadership in creating a 
statutory Privacy Officer in the Department of Homeland Security (DHS), 
but also for being vigilant in its oversight of that office.
    I am currently a Visiting Professor at the University of Michigan 
Law School, where one of my courses is a seminar on ``Technology Policy 
in the Information Age''--a significant portion of which is devoted to 
examining both the government and the private sector's privacy policies 
and practices. I have been involved in privacy policy for over a 
decade. In early 1993, I began serving as the Administrator of the 
Office of Information and Regulatory Affairs (OIRA) in the Office of 
Management and Budget (OMB); the ``I'' in OIRA signaled that I was, in 
effect, the chief information policy official for the federal 
government. Among other responsibilities, my office was charged with 
developing federal privacy policies, including implementation of the 
1974 Privacy Act. Later in 1993, I was asked to chair the Information 
Policy Committee of the National Information Infrastructure Task Force, 
which had been convened by the Vice President and chaired by then 
Secretary of Commerce Ronald Brown. One of the first deliverables we 
produced was from my committee's Privacy Working Group--a revision of 
the 1973 Code of Fair Information Practices, entitled ``Principles for 
Providing and Using Personal Information.'' During President Clinton's 
second term, I worked with the Vice President's Domestic Policy Advisor 
to create a highly visible and effective office for privacy advocacy in 
OMB; we selected Peter Swire to head that office and be the first Chief 
Counselor for Privacy, and I worked closely with him when I served as 
Deputy Director for Management at OMB during the last two years of the 
Clinton Administration. Since leaving government, I have, as indicated 
earlier, been teaching both at the graduate and undergraduate level.
    Given the Committee's extensive work in this area, it is not 
necessary to speak at length on the importance of privacy in the 
history and culture of our country. Nonetheless, to provide context for 
the comments that follow, I want to be clear that, from my perspective, 
privacy is one of the core values of what we are as Americans. Whether 
you trace its roots from the first settlers and the ``frontier'' 
mentality of the early pioneers, or from the legal doctrines that 
flowed from Justice Brandeis' oft-quoted recognition in the late 19th 
century of ``the right to be let alone,'' privacy has been one of the 
hallmarks of America--cherished, prized, protected and defended 
throughout our country and throughout our history.
    The ``Information Age'' has brought new opportunities to benefit 
from the free flow of information, but at the same time it has also 
raised privacy concerns to a new level. Computers and networks can 
assemble, organize and analyze data from disparate sources at a speed 
(and with an accuracy) that was unimaginable only a few decades ago. 
And as the capacity--of both the government and the private sector--to 
obtain and mine data has increased, Americans have felt more 
threatened--indeed, alarmed--at the potential for invasion (and 
exploitation) of their privacy.
    Before September 11, 2001, privacy concerns polled off the charts. 
Since then, there has been a recognition of the importance of security 
and the need for combating terrorism. But, as the Pew Internet surveys 
(and others) have found, Americans' commitment to privacy has not 
diminished, and some would argue (with much force) that if, in 
protecting our nation, we are not able to preserve a free and open 
society for our public lives, with commensurate respect for the privacy 
of our private lives, then the terrorists will have won. For that 
reason, it was both necessary and desirable in creating a Department of 
Homeland Security to statutorily require the Secretary to appoint a 
senior official with primary responsibility for privacy policy. Ms. 
Kelly was selected for that position and took office about six months 
ago.
    We thus have some--albeit limited--operational experience with the 
statutory scheme, and it is therefore timely to see what we have 
learned and what more could (and should) be done by this Committee to 
be responsive to privacy concerns.
    I would draw two lessons from Ms. Kelly's tenure to date at DHS.
    First, the existence of a Privacy Officer at DHS, especially 
someone who comes to the position with extensive knowledge of the 
issues and practical experience with the federal government, is highly 
beneficial. We know that some attention is now being paid to privacy 
concerns and that steps are being taken to advance this important value 
that might otherwise not have occurred.
    Consider the CAPPS II project, in which Ms. Kelly has recently been 
involved. She inherited a Privacy Act Notice issued last winter that 
was dreadful. She produced a Second Privacy Act Notice that reflected 
much more careful thought about citizens' rights and provided more 
transparency about the process. Regrettably, there was some 
backsliding: the initial concept was that the information would be used 
only to combat terrorism, whereas the second Notice indicated that the 
information would be used not only for terrorism but also for any 
violation of criminal or immigration law. Also, the document was vague 
(at best) on an individual's ability to access the data and to have 
corrections made. And there was more that should have been said about 
the manner in which the information is processed through the various 
data bases. But there is no question that the Second Notice was greatly 
improved from the first.
    Ms. Kelly was also involved with the US VISIT program, where she 
produced a Privacy Impact Analysis (PIA). Some had argued that a PIA 
was not required because the program did not directly affect American 
citizens or permanent residents. Nonetheless, to her credit, she 
prepared and issued a PIA that was quite thoughtful and was well 
received. Whether one agrees or disagrees with the underlying program, 
at least we know that someone was engaged in the issues that deserve 
attention and the product of that effort was released to the public.
    As someone outside the government, it is hard to know how 
influential Ms. Kelly will be if--and it inevitably will happen--there 
is a direct conflict between what a program office within DHS wants to 
do and what the Privacy Officer would counsel against for privacy 
reasons. Effectiveness in this type of position depends on autonomy and 
authority--that is, on the aggressiveness of the office holder to call 
attention to potential problems and on support from the top. We may 
take some comfort from Secretary Ridge's comments; he has said all the 
right things about supporting the Privacy Officer. But we cannot now 
know what will happen when the ``rubber meets the road.''
    This Committee, however, can further empower the Privacy Officer, 
and lay the foundation for remedying any problems that may arise, by 
maintaining its oversight and inquiring pointedly into how the 
Department operates. For example, Ms. Kelly (and Secretary Ridge) 
should be asked at what stage she is alerted to or brought into new 
initiatives; what avenues are open for her to raise any questions or 
concerns; and whether the Secretary will be personally involved in 
resolving any dispute in which she is involved. The timing of the 
release of the PIA for the US VISIT program suggests that Ms. Kelly may 
not always be consulted on a timely basis. As I read the E-Government 
Act of 2002, an agency is to issue a PIA before it develops or procures 
information technology that collects, maintains or disseminates 
information that is in an identifiable form. In this instance, the PIA 
was released much further down the road, when the program was about to 
go on line. Anything that helps the Privacy Officer become involved in 
new initiatives at the outset, before there is substantial staff (let 
alone money) invested in a project, would be highly salutary.
    The second lesson that I take from the experience to date with the 
Privacy Officer at DHS is that there has been no diminution in the 
capacity of the Department to pursue its mission. Or as a political wag 
would say, the existence of a Privacy Officer in DHS has not caused the 
collapse of western civilization as we know it. This is wholly 
consistent with what most Americans think--that national security and 
privacy are compatible and are not intrinsically mutually exclusive.
    The fact that there is no evidence that the existence, or any 
activity, of the Privacy Officer has caused DHS to falter leads me to 
suggest that the Committee consider expanding the number of statutory 
privacy offices from one to 24, covering all major Departments (the so-
called Chief Financial Officers Act agencies) or at least a handful of 
critical agencies. Imagine the salutary effect that a statutory privacy 
office could have at the Department of Justice, the Department of the 
Treasury (and the Internal Revenue Service), the Department of Defense 
and the Veterans Administration, the Social Security Administration, 
and the Department of Health and Human Services. All of these agencies 
already have some form of privacy office in place, although many simply 
process Privacy Act complaints, requests, notices, etc. and do not 
involve themselves in the privacy implications of activities undertaken 
by their agencies. It is significant, I believe, that OMB guidance from 
two administrations (issued first during the Clinton Administration and 
repeated recently by the Bush Administration) has called for the 
creation of such offices in Executive Branch agencies. With the 
imprimatur of Congress, these offices can achieve the status (and 
increased influence) and gain the respect that the Privacy Officer has 
enjoyed at DHS. Equally important, by establishing statutory privacy 
offices, the Congress will be able to engage in systematic oversight of 
the attention paid to this important value in the federal government--
something which has not occurred before this hearing today.
    I hope I do not seem presumptuous to suggest--indeed, strongly 
urge--one further step: establishing at OMB a statutory office headed 
by a Chief Counselor for Privacy. As noted above, we had created such a 
position during the Clinton Administration, and it served us well. 
Peter Swire, the person we selected to head that office, was able to 
bring his knowledge, insights, and sensitivity to privacy concerns to a 
wide range of subjects. In his two years as Chief Counselor, he worked 
on a number of difficult issues, including privacy policies (and the 
role of cookies) on government websites, encryption, medical records 
privacy regulations, use and abuse of social security numbers, and 
genetic discrimination in federal hiring and promotion decisions, to 
name just some of the subjects that came from various federal agencies. 
He was also instrumental in helping us formulate national privacy 
policies that arose in connection with such matters as the financial 
modernization bill, proposed legislation to regulate internet privacy, 
and the European Union's Data Protection Directive.
    I believe it is unfortunate that the current Administration has 
chosen not to fill that position. As a result, there is no senior 
official in the Executive Office of the President who has ``privacy'' 
in his/her title or who is charged with oversight of federal privacy 
practices, monitoring of interagency processes where privacy is 
implicated, or developing national privacy polices. Perhaps it was the 
absence of such a person that led to the Bush Administration's initial 
lack of support for the designation of a Privacy Officer at the 
Department of Homeland Security. Perhaps if someone had been appointed 
to that position, the Administration would not have appeared to be so 
tone deaf to privacy concerns in connection with the Patriot Act or any 
number of law enforcement issues that have made headlines over the past 
several years. An ``insider'' can provide both institutional memory and 
sensitivity to counterbalance the unfortunate tendency of some within 
the government to surveil first and think later. At the least, the 
appointment of a highly qualified privacy guru at OMB would mean that 
someone in a senior position, with visibility, would be thinking about 
these issues before--rather than after--policies are announced.
    Finally, I understand that after this Hearing, the Committee will 
move to mark up H.R. 338, ``The Defense of Privacy Act.'' That bill 
reflects a commendable desire to ensure that privacy impact statements 
are prepared by federal agencies as they develop regulations which may 
have a significant privacy impact on an individual or have a privacy 
impact on a substantial number of individuals. I was struck in 
reviewing the E-Government Act of 2002 for this testimony that it 
requires an agency to prepare a PIA not only before it develops or 
procures information technology that implicates privacy concerns, but 
also before the agency initiates a new collection of information that 
will use information technology to collect, maintain or disseminate any 
information in an identifiable form. This law has gone into effect, OMB 
has already issued guidance on how to prepare the requisite PIAs, and 
the agencies are learning how to prepare these PIAs using that model. 
Rather than impose another regime on agencies when they are developing 
regulations (which are frequently the basis for the information 
collection requests referenced in the E-Government Act of 2002), it 
might be preferable to amend the E-Government Act to expand its 
requirements to apply to regulations that implicate privacy concerns. 
That approach would have the added benefit of eliminating the 
inevitable debate over the judicial review provisions of H.R. 338, 
which go significantly beyond the judicial review provisions of any of 
the comparable acts (e.g., Reg.Flex., NEPA, Unfunded Mandates, etc.). 
Lastly, if you were to amend the E-Government Act to include privacy-
related regulations, you might also consider including privacy-related 
legislative proposals from the Administration. As you know, Executive 
Branch proposals for legislation are reviewed by OMB before they are 
submitted to the Congress. If there were a Chief Counselor for Privacy 
at OMB, s/he would be able to provide input for the benefit of the 
Administration, the Congress and the American people.
    Again, thank you for inviting me to testify today. This Committee 
has been an effective leader on privacy issues, and it is encouraging 
that you are continuing the effort. I would be pleased to elaborate on 
these comments or answer any questions that you may have.

    Mr. Cannon. Thank you Ms. Katzen.
    Mr. Dempsey, you're recognized for 5 minutes.

STATEMENT OF JAMES DEMPSEY, ESQUIRE, EXECUTIVE DIRECTOR, CENTER 
          FOR DEMOCRACY AND TECHNOLOGY, WASHINGTON, DC

    Mr. Dempsey. Chairman Cannon, Ranking Member Watt, Members 
of the Subcommittee, thank you for this opportunity to testify 
today about the Privacy Officer at the Department of Homeland 
Security. It's always a privilege to appear before the 
Subcommittee, and especially today on a panel with three of the 
most serious and insightful public officials--public servants 
that I know.
    Based on the record of the Department of Homeland Security 
Privacy Office to date, it is clear that a statutory Privacy 
Officer participating in senior level policy deliberations and 
using tools like the Privacy Act notice and privacy impact 
assessments can be an important mechanism for raising and 
mitigating privacy concerns surrounding the Government's use of 
personal information.
    Certainly the Department of Homeland Security Privacy 
Officer legislation should be a model for other agencies 
including the Department of Justice.
    With proper laws and policies, statutory privacy officers 
can be an important element of the overall approach to meeting 
the public's interest in privacy protection even as the 
Government pursues urgent missions like counterterrorism. And 
there's no more persuasive spokesperson and no more persuasive 
source for the proposition that we can and must protect privacy 
at the same time that we are pursuing the mission of 
counterterrorism than the five reports that Governor Gilmore 
has submitted to this Congress and his overall advocacy for the 
need to both preserve privacy and enhance our national 
security.
    One of the best ways to protect privacy is to raise privacy 
concerns early in the development of any new program so that 
those concerns can be addressed and mitigated in advance. We 
call this privacy by design, building in the privacy 
protections from the ground up before a system is implemented 
and before it's too late to avoid the problem. That's one of 
the roles that the chief privacy officer plays, perhaps one of 
the primary roles that person plays.
    Congress and this Committee were very foresightful when you 
insisted on creating a statutory Privacy Officer in the 
Homeland Security Act of 2002, but that so far is the only 
privacy officer statutorily created in the entire Government.
    While this is a new position, Nuala O'Connor Kelly has set 
the benchmark and it is now clear that we can extend the model 
to other agencies.
    It seems, based upon the evidence so far and the 
experience, that there are four elements of an effective 
privacy officer. One is a statutory basis. As Ms. Katzen has 
referenced, there are Privacy Act officers and privacy officers 
in other Federal agencies, but they don't have the stature that 
comes from a statutory basis and a statutory charter.
    Second, adequate staff.
    Third, inclusion in the senior level policy deliberations, 
which partly flows from the statutory charter.
    And finally, legislative tools like the privacy impact 
assessment.
    And on the fourth point, we should all recognize that 
privacy officers are part of the answer but that they cannot be 
effective unless the laws and policies are in place. One of 
those tools is the privacy impact assessment. The E-Government 
Act of 2002 requires that Federal agencies conduct privacy 
impact assessments whenever they are initiating a new 
collection of personal information or purchasing new 
technology. And one of the first PIAs was performed by the 
Department of Homeland Security Privacy Officer on the US-VISIT 
program.
    Mr. Chairman, if I may, we have--the Center for Democracy 
and Technology filed some written comments on that privacy 
impact assessment and I'd like to ask that those be entered 
into the record.
    Mr. Cannon. You can certainly just include those with your 
written statement.
    Mr. Dempsey. Thank you, Mr. Chairman.
    A further step is the bill that was just reported favorably 
by the Committee, H.R. 338. And just to second some of the 
comments made by Congressman Coble and by Mr. Watt, this was 
not a surprise that this was going to be marked up. It was long 
overdue. It is legislation that I personally testified in favor 
of at an earlier hearing of this Subcommittee. It's time to get 
that moving and hopefully get it through the Senate as well.
    We had some specific suggestions on improving that bill as 
it moves through the process and I understand the pressure to 
move that bill as it has previously passed the Committee, but 
by the time the legislative process is completed on that, I 
hope that you can reconcile the language in this privacy impact 
assessment legislation for regulations with the privacy impact 
assessment requirements that are in the E-Government Act. It's 
been hard enough getting the E-Government Act PIAs going. 
There's no need to have two separate sets of requirements or 
definitions and you really need to mesh H.R. 338 with section 
208 of the E-Government Act.
    Other issues Congressman Watt and other Members have 
alluded to need to be addressed. The Privacy Act of 1974 has 
not really kept pace with changing technology, particularly as 
we're seeing the Government increasingly turn to commercial 
databases in carrying out particularly its counterterrorism 
activities. We need to have strong guidelines on use of that 
kind of information, and on the sharing of that information.
    And finally, we need the continued involvement of the 
Subcommittee through the oversight process. So with H.R. 338 
you've taken another incremental step with the Privacy Officer 
at the Department of Homeland Security and hopefully 
proliferating that model through the Government is another 
step. And the question of the continued currency of the Privacy 
Act should be another issue that I believe the Committee and 
the Congress will need to address.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Dempsey follows:]

                 Prepared Statement of James X. Dempsey

    Chairman Cannon, Ranking Member Watt, Members of the Subcommittee, 
thank you for the opportunity to testify today about the Privacy 
Officer for the Department of Homeland Security. Based upon the short 
but significant record of that office to date, it is clear that a 
statutory Privacy Officer, participating in senior level policy 
deliberations and using the tools of Privacy Act notices and Privacy 
Impact Assessments, can be an important mechanism for raising and 
mitigating privacy concerns surrounding the government's use of 
personal information. Certainly, the DHS Privacy Officer legislation is 
a model for other agencies, including the Department of Justice. With 
some further reforms we support, including enactment of the Defense of 
Privacy Act and improvements to the Privacy Act of 1974, statutory 
Privacy Officers should be an important element of the overall approach 
to meeting the public's deeply-held and constitutionally-based interest 
in privacy protection even in the pursuit of urgent governmental 
missions like counterterrorism.
    The Center for Democracy and Technology is a non-profit, public 
interest organization dedicated to promoting civil liberties and 
democratic values for the Internet. Our core goals include enhancing 
privacy protections both in consumer transactions and between citizens 
and their government. We are also strong supporters of electronic 
government, having worked closely with key Members of the House and 
Senate for enactment of the E-Government Act of 2002. We commend you 
for your sustained attention to the important privacy issues associated 
with the government's collection and use of personal information. We 
look forward to ongoing work with you on these matters.

                               I. SUMMARY

    The federal government has many legitimate needs for collection and 
use of personal information, ranging from administration of benefits 
programs to tax collection to winning the war on terrorism. Especially 
in light of the digital revolution, this government demand for 
information brings with it heightened risk to privacy and the 
associated values of Fair Information Practices--including notice; 
limits on collection, use, disclosure and retention; data quality; 
security; and the citizen's right to review and correct information 
held about himself.
    One of the best ways to protect privacy, while facilitating the 
effective collection and use of information where necessary to carry 
out a governmental function, is to raise privacy concerns early in the 
development of a new program, so that those concerns can be addressed 
and mitigated in advance. We call this ``privacy by design''--building 
in privacy protections from the ground up. Watchdog groups like CDT and 
even Members of Congress often find out about a privacy problem only 
after a system has been implemented. Then, it is often difficult to 
correct the problem. To ensure that privacy issues are addressed early 
on, many private companies and some government agencies have created a 
Chief Privacy Officer position--someone inside the organization, who 
can be consulted during the conceptualization phase of a new project 
involving collection of personal information.
    In the Federal government, the Department of Homeland Security 
(DHS) has a statutorily created Privacy Officer--the only such 
statutory position in the U.S. government today. While this is a new 
position, CDT has been impressed with the role that Nuala O'Connor 
Kelly has assumed within the Department. We believe that the DHS 
experience should serve a model for agencies across the government.
    We would also like to take this time to again voice our support for 
the Defense of Privacy Act (DOPA), which will require agencies to 
publish Privacy Impact Assessments (PIAs) for all regulations. DOPA 
will serve as a sound complement to Section 208 of the E-Government Act 
of 2002, which requires that federal agencies conduct PIAs whenever 
they purchase a new information technology or initiate a new collection 
of personally identifiable information. One of the first published PIAs 
was the one written by the DHS Privacy Officer on the US-VISIT (United 
States Visitor and Immigrant Status Indicator Technology) program. It 
is an important document and has served to bring greater transparency 
to that program. PIAs can be especially effective if they are published 
before the system design or regulatory process is completed.

                       II. CHIEF PRIVACY OFFICERS

A. History of Chief Privacy Officers in the Federal Government
    For years, many federal agencies have had ``Privacy Act Officers.'' 
In some agencies, this has actually been a part-time job. Privacy Act 
Officers often spend much of their time not on privacy issues per se, 
but in dealing with requests from individuals who want to see their 
government records under the access provisions of the Privacy Act. In 
addition, these officers usually are also responsible for the other 
major records disclosure law, the Freedom of Information Act. Privacy 
Act Officers, despite their title, have no statutory basis in the 
Privacy Act. There is no mechanism for including them in internal 
deliberations on matters affecting privacy. They are often mid-level 
career officials and do not have the ability to intervene at a policy 
level even when a major privacy issue comes to their attention. They 
are often brought into discussions about a program only at the last 
minute to draft a notice required under the Privacy Act when the 
government creates or changes a ``system of records,'' but that notice 
generally serves no role in shaping policy.
    Realizing that this system was not effective, the Clinton 
Administration in 1998 required all agencies to ``designate a senior 
official within the agency to assume primary responsibility for privacy 
policy.'' \1\ The Clinton Administration used these ``privacy leaders'' 
to review Privacy Act compliance within each agency. The next year, 
Peter Swire was named Chief Privacy Counselor for the Administration 
within the Office of Management and Budget. Mr. Swire worked on both 
commercial and government privacy issues and had a voice in 
deliberations concerning agencies across the government. Among his 
accomplishments was requiring all government Web sites to include 
privacy notices.
---------------------------------------------------------------------------
    \1\ William J. Clinton, ``Memorandum for the Heads of Executive 
Departments and Agencies,'' May 14, 1998, <http://www.cdt.org/privacy/
survey/presmemo.html>.
---------------------------------------------------------------------------
    At the same time, many companies in the private sector began to 
hire or promote employees to be ``Chief Privacy Officers.'' The CPO 
position is now very common in the e-commerce, banking and health care 
industries. Several membership organizations of CPOs have formed. The 
largest of these, the International Association of Privacy 
Professionals (IAPP), now meets twice yearly and includes a wide range 
of industry and government representatives from around the world.
    In 2001, many of the privacy leaders within federal agencies--
mostly political appointees--left government service with the change in 
administrations. Despite urging from privacy advocates,\2\ the Bush 
Administration did not hire a new Chief Privacy Counselor and only a 
few agencies kept their privacy leaders. Some of these privacy leaders 
thrived in new full time roles as Chief Privacy Officers. In fact, a 
few of the federal government Chief Privacy Officers have been among 
the most innovative in the world, in either the public or private 
sectors.
---------------------------------------------------------------------------
    \2\ Several privacy groups and academics including CDT wrote to OMB 
Director Mitch Daniels urging him to continue the position <http://
www.cdt.org/privacy/010416omb.shtml>.
---------------------------------------------------------------------------
B.  Two Examples of Chief Privacy Officers in the US Federal Government
            --Internal Revenue Service
    After a series of hearings in the late 1990s, which exposed 
extraordinary privacy abuses by IRS agents, the IRS began to take 
privacy more seriously and appointed Peggy Irving to the position of 
``Privacy Advocate.'' Ms. Irving drew upon the Canadian model of 
Privacy Impact Assessments to ensure that program managers understood 
the privacy implications of their projects, took proper steps to 
protect personal information, and trained employees on the privacy 
aspects of new programs or systems. The Federal Chief Information 
Officer (CIO) Council soon recognized this model as a best practice and 
it became the basis for the E-Government Act's requirements for Privacy 
Impact Assessments as well as a model for private sector PIAs. In 2003, 
Ms. Irving left for a job with the federal courts and Maya Bernstein 
filled the Privacy Advocate position. Ms. Bernstein has already begun 
to take a leadership role in the privacy community and has been active 
in government-wide discussions on privacy policy.

            --US Postal Service
    The Postal Service collects a wide range of personal information 
from individuals in order to deliver the mail properly, yet it 
maintains one of the most trusted brand names among Americans.\3\ In 
2001, Zoe Strickland became the agency's first Chief Privacy Officer. 
Ms. Strickland worked with the Postal Service's CIO to reexamine the 
organization's Privacy Act Systems of Records and data flows within the 
agency, improving both efficiency and privacy simultaneously. After 
this process was complete, Ms. Strickland helped put together for 
project managers a full ``business impact assessment'' process that 
examines a wide range of potential issues, including privacy and 
security impact assessments. Ms. Strickland has also been a strong 
advocate for simplifying the often complex and legalistic privacy 
notices published both on Web sites and in the Federal Register. Ms. 
Strickland is frequently mentioned in the media as one of the top 
privacy officers in the world.
---------------------------------------------------------------------------
    \3\ According to a ``privacy trust'' survey of government agencies, 
industries and others conducted by Carnegie Mellon University and the 
Ponemon Institute, the Postal Service placed 5th of 26 categories, just 
above law enforcement and charitable organizations. DHS finished 25th 
of 26. Dr. Larry Ponemon, ``In Whom Do You Trust,'' Darwin Magazine, 
November 2003. <http://www.darwinmag.com/read/110103/trust.html>.
---------------------------------------------------------------------------
C. The DHS Privacy Officer
    Based on these positive experiences, Congress created the first 
statutory privacy officer in Section 222 of the Homeland Security Act 
of 2002. The DHS Privacy Officer's statutory responsibilities include 
``evaluating legislative and regulatory proposals involving collection, 
use, and disclosure of personal information by the Federal Government'' 
and ``conducting a privacy impact assessment of proposed rules of the 
Department . . .. including the type of personal information collected 
and the number of people affected.'' The Privacy Officer reports 
directly to the Secretary.
    In April, 2004, Nuala O'Connor Kelly was named to the post. In 
CDT's opinion, Ms. Kelly was the right person for a difficult job. She 
had privacy sector experience dealing with a startup company that was 
trying to rapidly improve privacy protection while expanding its 
business, and she had experience within the Bush Administration as 
Chief Privacy Officer at the Commerce Department. She was well known to 
privacy advocates and industry.
    In only ten months on the job, Ms. Kelly has been able to show why 
the Privacy Officer position is so vital to the success of the new 
department. She has become a trusted participant in internal agency 
deliberations while at the same time reaching out to privacy advocates 
and increasing public transparency of some of the most controversial 
programs in government today.
    For example, despite the tight time pressures created in the 
implementation of the US-VISIT program in January, DHS released a 
forthright and clear analysis of the privacy issues involved with the 
program. After the PIA was released, the Privacy Officer hosted a 
meeting for a wide range of privacy advocates and immigration groups 
with the US-VISIT team. Advocates expressed their concerns about issues 
such as the lack of information on redress issues for visitors who 
believe that information held about them may be incorrect or 
incorrectly interpreted and the unclear nature of the data quality and 
data retention rules. Ms. Kelly and the US-VISIT team promised that 
these issues will be actively addressed as the program moves forward.
    We do have specific criticisms of the way DHS has handled privacy 
issues. The PIA on US-VISIT would have been far more meaningful if it 
had been issued before the program was actually being implemented. 
After all, the PIA is intended to surface privacy issues so they can be 
resolved with public input before a program is implemented. Ms. Kelly 
has stated that the agency will release future PIAs in advance of the 
program launch. In addition, as noted above, the US VISIT PIA was 
deficient on the question of redress and should have been more specific 
on data quality and data retention.
    These criticisms should not detract from the basic point: the DHS 
Privacy Officer is an important institution and one that deserves 
support. CDT looks forward to continued work with the Privacy Officers 
as she actively builds an internal team and hones the tools she will 
need to ensure that privacy is adequately respected in all homeland 
security projects.

D. Statutory Authority for Privacy Officers
    Based upon the DHS experience, as well as the experience at other 
agencies and in the private sector, CDT believes that every federal 
agency should have a statutory Privacy Officer with authorities similar 
to those provided under the Homeland Security Act. This officer would 
have the stature and authority to gain attention to this important 
issue and effectively conduct privacy impact assessments and train 
agency staff in their privacy responsibilities.
    The essential elements of an effective Privacy Officer function, as 
we see it are three-fold: (1) statutory basis; (2) adequate staff; (3) 
inclusion in senior-level policy deliberations.
    Even with these elements, the Privacy Officer is not a panacea. 
Congress cannot create Privacy Officers and claim to have solved the 
privacy problems associated with government in the digital age. 
Continued oversight will be needed. And the underlying statutory 
authorities must be strengthened. Privacy Officers alone cannot 
mitigate, for example, the problems associated with data mining and the 
blurring of the lines between government and private sector databases. 
That will require Congressional and Executive Branch action to detail 
the standards and guidelines for information access and sharing.

                  III. FURTHER PRIVACY REFORMS NEEDED

    Privacy Officers are part of the answer to the privacy challenge, 
but they cannot be effective if the privacy laws remain outmoded for 
changing technology. The best, most effective Privacy Officer will 
achieve nothing if she does not have good laws to work with.
    PIAs have become a key tool for Privacy Officers, Congress and the 
public to monitor federal programs. Under the Section 208 of the E-
Government Act, signed into law by President Bush at the end of 2002, 
federal agencies were supposed to begin posting PIAs in April 2003. 
Those that have been made available have been high quality documents, 
yet, unfortunately, most agencies have not been making their PIAs 
publicly available. This is partly due to the fact that OMB only 
published guidance for Section 208 in November 2003. But more 
importantly now, OMB has encouraged agencies not to make PIAs available 
until after their budgets are finalized. This is inconsistent with the 
purpose and value of PIAs. PIAs should be released as soon as they are 
completed, to promote public participation in the debate over pressing 
privacy concerns.
    There is also a need for greater awareness within government of the 
new privacy provisions of the E-Government Act. CDT has been working 
with key partners to organize a series of workshops to educate 
government officials on what they need to do to comply with the Act's 
core requirements. In April 2003, CDT co-hosted a workshop on the new 
privacy rules that were being drafted under the Act. Speakers included 
the DHS Chief Privacy Officer and representatives from OMB. In 
November, CDT co-hosted a public workshop to help agencies craft and 
review the reports on privacy activities required under Act. In 2004, 
we will be hosting further workshops on implementation of the E-
Government Act. The first of these already took place on January 22, 
when CDT co-hosted a forum to help agencies comply with the Act's 
provisions on machine readable privacy notices. And on March 31, CDT 
will be hosting, along with the Council for Excellence in Government 
and the American Council for Technology, a workshop on PIAs.
    CDT previously testified that the Privacy Impact Assessments 
required under the Defense of Privacy Act will complement the PIA 
requirements of the E-Gov Act. We are very pleased that the 
Subcommittee is planning to report the bill. As DOPA moves forward, we 
recommend that you ensure that the PIA provisions of DOPA and the E-
Government Act are congruent. Our initial thoughts are that this should 
be done by making the list of factors to be considered in a PIA the 
same in both laws, and by making it clear that when a new collection of 
information is initiated by rule, the notice and comment provisions of 
the Defense of Privacy Act apply to the privacy impact assessment 
process. Indeed, the publication requirement of DOPA is an improvement 
over the E-Government Act; it may be desirable to amend the latter to 
make it clear that PIAs must generally be published for comment before 
a system is procured or a program is implemented.
    Other privacy issues that need to be addressed include the need to 
update the Privacy Act. One of the Act's key definitions--``system of 
records''--is ill-suited to the current data environment, in which much 
information useful to the government is held by the private sector. 
Under current law, the government may be able to bypass the Privacy Act 
by accessing existing private sector databases rather than collecting 
the information itself. When citizens and policymakers alike are 
concerned about the potential abuses of ``data-mining'' techniques, 
Congress obtain a full reporting from all agencies as to their uses of 
commercial databases and should insist that there be clear guidelines 
as to the access to and use of commercial data.

                             IV. CONCLUSION

    CDT commends the Subcommittee for holding this important hearing. 
The excellent work of the DHS Chief Privacy Officer provides a vision 
of what could be. Privacy Officers cannot alone solve every privacy 
problem that will face the federal government. However, if the Privacy 
Officer position is statutorily chartered for each agency and if 
Privacy Impact Assessments are required to be published for both 
regulations and information collections, the public will be insured 
greater accountability and responsibility on this important issue.

    Mr. Cannon. Thank you, Mr. Dempsey.
    Without objection, I would like to recognize the sponsor 
and then the primary co-sponsor for questioning out of order. 
We'll go back to the time people arrived for questioning after 
that. So Mr. Chabot, the gentleman from Ohio is recognized for 
5 minutes.
    Mr. Chabot. Thank you, Mr. Chairman. I appreciate that very 
much.
    Clearly, as we've seen from the testimony of all the 
witnesses here today, protecting the American people from 
terrorist threats is a paramount importance, yet protecting the 
civil liberties that Americans cherish and their privacy is 
also a critical issue. Balancing security and civil liberties 
in the face of terrorist threats around the world is a 
difficult task that must be carefully considered.
    Ms. Kelly, thank you for your service at the Department of 
Homeland Security and for appearing before the Subcommittee 
today. We appreciate it very much. Your testimony will be 
tremendously helpful as Congress deliberates on how best to 
protect the privacy of our Nation's citizens
    As the Chief Privacy Officer for the Department of Homeland 
Security--I've got a couple questions. I'll just put them all 
together rather than keep going over them. But you're really in 
a unique position to evaluate the benefits of privacy impact 
assessments in the Federal regulatory process.
    Could you detail for the Subcommittee, this is my first 
question, how preparing privacy impact assessments have 
affected the regulatory process at the Department of Homeland 
Security? Specifically, one of the primary goals of the bill 
which just passed the Committee a little while ago is to urge 
Federal agencies to reconsider regulations that are potentially 
harmful to the privacy rights of the American people and 
ultimately pursue less intrusive alternatives.
    In your experience at DHS, has the consideration of privacy 
rights as regulations are formulated affected the ultimate 
product? Or has the preparation of privacy impact statements 
resulted in the reconsideration of any proposed regulations or 
the pursuit of alternative plans?
    And finally, a few concerns have been raised about the 
burden preparing privacy impact assessments might have on the 
Federal regulatory process. Have you experienced any 
significant burden associated with preparing privacy impact 
assessments at the Department of Homeland Security?
    You can address them in any order that you'd like.
    Ms. O'Connor Kelly. Thank you so much for those questions.
    It is actually one of the most important programs, I think, 
within the Department of Homeland Security's Privacy Office, to 
oversee the development of privacy impact assessments for the 
Department. And if I might, I'd like to detail a little bit the 
process that we follow.
    We actually have given our directorates written 
instructions that the program office for each of the 
directorates is responsible for the initial drafting of a 
privacy impact assessment. That makes the program officials and 
policymakers for each of the various 22 agencies that now make 
up the Department on the hook and responsible for the initial 
determination of whether a privacy impact assessment is 
required from the very beginning of an idea.
    And of course, that can be done in direct consultation with 
my office. It should also be done in consultation with the 
Privacy Act and Privacy Officers within the directorate and 
with the chief information officers for that directorate so 
that privacy impact assessment requirements will be considered 
from the very beginning of any program development.
    And of course, it should be said that the section 208 
requirements skew more toward the new technology developments 
and new program developments rather than toward notice of 
proposed rulemakings as the proposed legislation does.
    I would have to say that it is again one of the most 
important processes, I think, for the evaluation of privacy 
impact of any new program for the Department. It forces the 
analysis to occur at the earliest possible stages. And we have 
also endeavored to make those privacy impact assessments public 
so that, as your proposed legislation suggests, citizens can 
comment on the PIA and the proposed program at the earliest 
implementation or proposed stages.
    So I don't see it as a burden, although if you want to talk 
about man-hours or person-hours, to do a good privacy impact 
assessment does require substantial amount of time by employees 
of the program office, of the Chief of Information's Office, 
and also of my office. But we don't necessarily see that as a 
negative burden but it is certainly a cost and it should be 
considered.
    Mr. Chabot. Thank you, very much.
    Mr. Chairman, I know the light is ready to turn red here. 
My follow-up question was just going to be with the other 
witnesses to see if they wanted to comment on the legislation 
that we've considered here today, but I'm sure the other 
Members of the panel will get into that so I'll refrain from 
asking that at this time.
    Mr. Cannon. The gentleman yields back. The gentleman from 
New York, Mr. Nadler, is recognized for 5 minutes.
    Mr. Nadler. Thank you.
    Thank you. Let me start by just asking the other witnesses 
if they'll comment on the questions of the gentleman from Ohio. 
I would have a similar question on the impact of this 
legislation. Mr. Dempsey first.
    Mr. Dempsey. Congressman, if I could. As the Chairman said, 
of course, the Budget Office has looked at this and concluded 
that it will not have a significant monetary impact. But I 
think more importantly than that, these are issues that have to 
be addressed anyhow in the design of the system. The privacy 
impact assessment, whether it's on the regulatory side or on 
the procurement side, you have to--program managers better be 
addressing what information are they collecting, why are they 
collecting it, how long are they keeping it for, who's going to 
have access to it, how the security of it will be protected, 
how they will ensure the accuracy of the information--after all 
the system is not going to be worth anything and we're going to 
just be wasting money if the information is inaccurate--how do 
citizens correct information in the system, and what sort of 
oversight and audit mechanism is there?
    So those are issues that any good program manager should be 
addressing strictly from an efficiency standpoint. Again, this 
is one of the areas where the privacy interest and the 
Governmental mission are not at odds with each other. You have 
to walk through the information issues.
    I think a better term than privacy is fair information 
practices. How are we using information? That's one of the 
things that the PIA process helps you do. And at the end of the 
day if you don't do that you're going to end up with either an 
embarrassment or a system that doesn't work or citizen 
disrespect for the system, in which case perhaps citizens will 
start entering faulty data, et cetera.
    So in order to create trust and in order to create an 
efficient system to serve the Government mission, whenever it 
is, you have to address these questions.
    That's why I say that I don't really see this at all as 
imposing a cost. I see it really as helping the efficiency of 
the Government.
    Mr. Nadler. It imposes a cost, in other words, only if the 
Government agencies weren't going to do what they should be 
doing?
    Mr. Dempsey. That's correct.
    Mr. Nadler. Does anyone else have a brief comment to make, 
because I have one other question?
    Ms. Katzen. I would just add one thing to that, sir, and 
that is, as Mr. Dempsey mentioned earlier, there is already in 
the law and OMB has issued guidance and the agencies are 
learning how to do PIAs for not only information technology 
programs, which is what the CAPPS II and the US-VISIT programs 
are. They are not regulations, they are programs.
    But also the E-Government Act applies whenever there is an 
information collection, paperwork, that calls for personally 
identifiable information.
    Now, often those paperwork exercises are the product of 
rules, regulations. And I think it is well taken that it should 
be clear that the E-Government Act applies in those 
circumstances.
    But I would support what Mr. Dempsey said--make sure 
they're the two same regimes and not different regimes for the 
same process.
    Mr. Nadler. Thank you.
    Ms. Kelly, let me ask you the following. Much of the debate 
over privacy is centered about the accumulation of information 
about individuals by Government agencies. But this Committee 
has been advised on numerous occasions that information 
gathered by contractors or other third parties is sometimes 
used or reviewed by those third parties and never actually 
retained by the Government agency. What steps are Federal 
agencies--have Federal agencies taken to ensure the information 
gathered and held by third party contracts for the Federal 
Government is protected?
    And to the extent that some of these data functions are 
being contracted out overseas what steps are Federal agencies 
taking to ensure that once the data is outside the U.S. it is 
not missed used or mishandled abroad?
    Ms. O'Connor Kelly. Thank you, very much, Mr. Nadler.
    I think that the sharing of personal information between 
the public and the private sector is likely one of the most 
compelling privacy issues confronted by my department and by 
most Federal agencies in trying to leverage the best of 
technology and the most efficient and cost-effective processes 
to achieve their departmental mission but while also protecting 
the personal information that is used in those programs or 
missions.
    In my experience at the Department of Homeland Security, we 
very routinely cover contractors who are providing services to 
the Department by the Privacy Act expressly in Privacy Act 
systems of records notices which bind the activities and the 
behavior of the contractor to be subject to the Privacy Act of 
1974 equally as if those activities were performed by a Federal 
Government employee.
    But your point is still extraordinary well taken that in 
instances that a private sector company is not acting as a 
contractor but is simply a partner or somehow a regulated 
entity the rules are less clear. And my office is also working 
diligently with a number of industry groups to develop 
responsible rules for that kind of information sharing across 
the public and private sector divide.
    I think some of the points that Ranking Member Watt made 
earlier about the incidents of information sharing in the past 
are extraordinarily important and illustrative that we need 
those kind of rules in place on a voluntary basis in the 
private sector as well as good instruction in the public sector 
on how to handle private sector information.
    Mr. Nadler. I see the red light so I won't follow up. Thank 
you.
    Mr. Cannon. The gentleman yields back.
    Mr. Coble, the gentleman from North Carolina, is recognized 
for 5 minutes.
    Mr. Coble. Thank you, Mr. Chairman. And Chairman Cannon 
said earlier, we appreciate you all being with us, I say to 
each of the four witnesses.
    Mr. Chairman, I've got to depart for a meeting that started 
at four o'clock, but prior to my departure I wanted to put a 
question to Ms. O'Connor Kelly regarding last fall's 
disclosure, Ms. O'Connor Kelly, that JetBlue provided travel 
records I think in excess of one million of its passengers to a 
defense contractor presumably in violation of its own policies.
    I recall there were several press releases or reports 
shortly after that was revealed that indicated that you were 
commencing an investigation into matter. I'm curious to know 
the current status of your investigation.
    Ms. O'Connor Kelly. Thank you, very much, Mr. Coble.
    Again, a very high profile and high priority for my office 
is the investigation of any misuse of individual data by any 
employee of the Department of Homeland Security that would 
violate the Privacy Act. And certainly the case that you refer 
to is probably one of the more high-profile cases in the last 
12 months. We certainly did announce that we were looking into 
particularly any activities by Department of Homeland Security 
employees. We are still in the process of accumulating many, 
many pages of documents that we are reviewing in my office to 
ascertain any wrongdoing by any employee.
    I think though the case illustrates a larger point which is 
in the days and weeks after September 11th, many companies 
voluntarily came forward in the spirit of trying to help 
Federal Government agencies and we need to have clearer rules 
in place where companies who want to help the homeland security 
mission know how to do that effectively and with respect for 
their customers' information and with respect for the privacy 
policies that are in place at the time that data is collected.
    Mr. Coble. And I also presume or hopefully that their 
purpose in doing so was well-intentioned. Is that your reading?
    Ms. O'Connor Kelly. That's very much my understanding, yes, 
sir.
    Mr. Coble. I thank you and I yield back, Mr. Chairman.
    Mr. Cannon. I thank the gentleman. I apologize for causing 
him to be late by going out of order earlier.
    Mr. Coble. I will hold you harmless.
    Mr. Cannon. Thank you, my friend.
    The gentleman from Massachusetts, Mr. Delahunt, is 
recognized for 5 minutes.
    Mr. Delahunt. Thank you, Mr. Chairman. And Professor Katzen 
and Mr. Dempsey, to follow up on your reference to how the--
this concept, this privacy information office should be 
expanded, I've had discussions with the gentleman to my right 
here, although he's usually to my left but today he's to my 
right, Mr. Nadler. He and I intend to file, and we will be 
looking for co-sponsors, legislation to insert this--insert 
this particular initiative into the Department of Justice. So 
we'll be looking to you for guidance, as well as--as well as 
you, Ms. Kelly.
    Having said that, my concern is about the enforcement 
mechanism. I think it was the GAO study last year that 
indicated that compliance with the Privacy Act by various 
Federal agencies is--I think the word was uneven. And there--in 
the memo prepared by the Chairman to Members of the Committee, 
there's a sentence in there, and let me read it to you. And 
then I would pose the question and ask comments--ask if you can 
provide information to the Committee.
    An agency that releases such information in violation of 
the Privacy Act may be sued for damages sustained by an 
individual as a result of such violation under certain 
circumstances.
    Presumably the--it's the Federal Tort Claims Act that would 
be implicated? Or is there a different piece of legislation 
that allows a suit? Professor Dempsey?
    Mr. Dempsey. I'm not a professor but I think I can answer 
the question.
    It's actually in the Privacy Act itself, where there is a 
damages provision.
    Mr. Delahunt. Are there caps on the damages?
    Mr. Dempsey. No, I don't think there are. There's a 
liquidated damages provision and then there's also a whatever 
damages you can prove.
    Mr. Delahunt. So this outside the Federal Tort Claims Act 
then?
    Mr. Dempsey. Yes, it's a separate statutory scheme, yes, 
sir.
    Mr. Delahunt. In terms of the enforcement mechanism?
    Mr. Dempsey. Yes.
    Mr. Delahunt. Do we have data available to us in terms of 
the number of suits that have been brought?
    Mr. Dempsey. Well, one of the issues, actually an issue 
that's now before the Supreme Court--and it's one we should all 
watch carefully--is the question of the statutory or liquidated 
damages provision of that law. In many cases, of course, it may 
be difficult to prove specific monetary losses, although in the 
case of a victim of identity theft that could be significant. 
An awful lot of people sue under the liquidated damages 
provision where there is a----
    Mr. Delahunt. You said an awful lot. Do you have any 
empirical information that you can provide?
    Mr. Dempsey. Not with me sir, but we could certainly try to 
find some of that and get----
    Mr. Delahunt. I really think that's important because we 
can have a policy but if we have, within the provision allowing 
for lawsuits by individuals against the Government, impediments 
that are burdensome then I don't see the necessary deterrence, 
if you will, to Federal agencies to not comply, if you will.
    Mr. Dempsey. Well and I--we will definitely look at----
    Mr. Delahunt. Or incentive. Let me rephrase it, incentive 
to comply with the Privacy Act.
    Mr. Dempsey. Congressman, we're happy to look that up.
    Mr. Delahunt. And if there are settlements, too, I'd like 
to have that information.
    Mr. Dempsey. And I think you're also on the right track 
here generally, which is that you can have an office like the 
privacy officer, and that's important, but you need to look at 
the question of what are the laws that he or she is enforcing. 
And if those laws themselves don't have any teeth to them, then 
that person is only as good as their internal persuasive powers 
are and they're going to win some and lose some.
    Mr. Delahunt. Well, I'm sure Ms. Kelly's persuasive powers 
are substantial, but I'd like to have some teeth.
    Mr. Dempsey. You need some teeth.
    Mr. Delahunt. In terms of the--again, in terms of creating 
incentive for compliance because, you know, we can have 
oversight hearings and we can be people of--we can have all the 
good intentions in the world. But if we do not have a 
deterrence, if you will, then I think we will continue to find 
that compliance will be, as the GAO study indicated, uneven. 
And that's a real danger.
    Anyone else went to comment?
    Mr. Gilmore. Mr. Delahunt, let me add one thing. I know the 
emphasis of the question is on not getting information. There 
are going to be a large number of programs and Governmental 
functions that are, by their very nature, going to accumulate 
some information from people. And then I think, at that point, 
the real focus needs to be what rules, what technologies, what 
regulations are applied in order to--how to control that 
information. Who gets it? Where is it stored? How long is it 
stored? Who can get it and who can't? What can you do with it?
    These are the ultimate issues that are going to provide the 
security to the people of the United States as we go forward.
    For example, there are--Mr. Nadler, Congressman Nadler 
asked a question about how the Department could influence some 
of these matters. And I think they're doing it by issuing 
contracts that place important privacy considerations within 
them and requirements that private contractors address those 
issues and actually come forward with their way of dealing with 
it so that it can be assessed by the Privacy Officer and by the 
Department.
    You are, in effect, beginning to set down the structures 
and institutional checks and balance necessary that will give 
you the opportunity for oversight.
    Mr. Delahunt. Thank you.
    Mr. Cannon. The gentleman's time has expired.
    Let me suggest to the gentleman from Massachusetts and also 
the gentleman from New York that I believe we have a provision 
in this so far unreported DOJ reauthorization bill that we 
could create the privacy officer for the Department of Justice. 
So you may want to take a look at that bill and see how that 
would fit in.
    Without objection, Members may submit questions to the 
witnesses, written questions, and we'll try and include the 
answers to those in the record, if there are any of those.
    And now Mr. Watt, the gentlemen from North Carolina is 
recognized for 5 minutes.
    Mr. Watt. Thank you, Mr. Chairman. I want to pick up on a 
couple of things that have come out in the testimony, if I have 
time. The most important one is kind of a segue from your last 
comment, Mr. Chairman, and from Professor Katzen and Mr. 
Dempsey's suggestion that we really need to have privacy 
officers in all 20 departments, however many departments there 
are.
    I may be expecting too much of Ms. Kelly to ask her to 
comment on that because she's probably going to have the 
feeling that she would be meddling in other people's business. 
But I would, if she cares to comment on it, like to hear from 
her on whether she thinks that's a good idea. I would certainly 
like to hear from Governor Gilmore on whether he thinks it's a 
good idea.
    And I guess the subtext for that is is there really enough 
expertise in our agencies now to do effective privacy impact 
analyses without a privacy officer? And secondarily, is there 
enough focus on it, on the importance of it, without having 
somebody who has direct responsibility for it?
    So with those--with that kind of backdrop let me--I'll give 
Ms. Kelly an opportunity to kind of frame how she might want to 
meddle in this while we listen to Governor Gilmore.
    Mr. Gilmore. Congressman Watt, I guess that the two 
elements I was thinking about as you asked your question is 
number one, what is--what are you trying to do? And I think 
that there's going to be a big debate here as time goes on as 
we apply security measures about how that impinges on the 
overall freedoms of the American people. Not just privacy. 
Privacy is only really a single element. And I know the 
Subcommittee is focused on it because of the Privacy Act and 
the underlying House--H.R. 338. But it's going to be a big 
issue.
    But I guess I would want to reflect upon whether or not you 
want to put 28 privacy officers into all these different 
departments. It certainly would require an awful lot of staff. 
It would require an awful lot of slowing up, potentially.
    And mainly, I wonder about one privacy officer in one 
department making a rule on a particular concept and then 
another privacy officer somewhere else making the same ruling 
or a different ruling on the same concept. And after a while 
the Government becomes so snarled up about what's privacy and 
what isn't that you may really slow things up in a way that 
could be detrimental.
    I'd think about that. You might want to just consolidate 
all of this under Nuala O'Connor Kelly, give her about 5,000 
employees or redeploy them, if you will----
    Mr. Watt. Not only now you've got her going to meddling, 
you've got her to empire building.
    Mr. Gilmore. Empire building. But I would redeploy.
    Mr. Watt. You've laid a good framework for whatever comment 
she might want to make.
    Mr. Gilmore. I guess those are my initial thoughts.
    Mr. Watt. Ms. Kelly?
    Ms. O'Connor Kelly. Well, I have to say that this entire 
panel is in violent agreement that we are all very happy with 
the work that's been done and that there's much more to be 
done, both at our agency and at other agencies. So you're 
right, Congressman Watt, that I try not to be meddlesome, 
although I'm sure that I've been accused of that in my personal 
life and elsewhere.
    But I should note that the OMB guidance under section 208 
of the E-Government Act impliedly requires all agencies to have 
a senior privacy official. And you echo that language in the 
proposed Federal Agency Protection of Privacy Act, as it's 
called now.
    Mr. Watt. Is there enough expertise on this issue, though, 
in most agencies, in your opinion, without somebody whose sole 
responsibility is that?
    Ms. O'Connor Kelly. There's a surprising amount of 
expertise in the agencies that have a historic mission that 
affects personal information. I think it's no accident that you 
see tremendously well formed privacy programs at agencies like 
the Internal Revenue Service and the United States Postal 
Service. I know both of those privacy officers in those 
programs quite well. Because certainly incidents have happened 
in the past where people were concerned about those agencies' 
work but also because such a crucial lifeblood of their mission 
involves personal information.
    I certainly would say that we need to look at the hierarchy 
of agency missions and of the language of the proposed bill as 
well in that light, that we certainly may not need PIAs for 
rules that have absolutely no impact on human beings at all but 
simply deal with statistics or other intangible objects. But 
certainly agencies and programs that impact personal 
information should be, I think, our first line of attack.
    Mr. Watt. Go-ahead.
    Ms. Katzen. If I may, I'm not in the Government right now 
but my experience is that the amount of expertise in the field 
of privacy has been increasing exponentially, and that we have 
a cadre of people who understand the concept and know how the 
Federal Government works and that there would be a good pool to 
feed this process.
    But the solution is to have a statutory office in OMB, the 
Chief Counselor For privacy, so you would not have the kinds of 
disagreements among agencies that Governor Gilmore was 
suggesting.
    Mr. Watt. So you're not saying you might not need 20 of 
them, you might need one super privacy czar, in OMB?
    Ms. Katzen. Exactly. If you had that then you could have a 
handful of agencies, five or six agencies max, where, as Ms. 
Kelly has indicated, we have the expertise because for years 
they have been dealing with personally sensitive information, 
either financial or medical records, SSA, those kinds of areas, 
with it topped by an OMB official would be, I think, very 
sensible.
    Mr. Dempsey. Congressman Watt, just two quick--two or three 
quick points.
    First of all, the Center for Democracy and Technology, 
recognizing this question about expertise, has been conducting 
a series of workshops--we held two last year, we held one in 
January, we're holding a second one on March 31--for Government 
officials to help actually walk them through the implementation 
of the E-Government Act, including the preparation of privacy 
impact assessments and some of the other provisions there. 
We've had roughly 150 agency officials at each one of those so 
far, working with OMB.
    Now, I'll say that OMB has not been fully fulfilling, I 
think, it's mission here. They were late in issuing the 
guidance on preparation of privacy impact assessments. They 
clearly have a role to do that. They were late in doing that.
    And they're now unfortunately encouraging agencies to 
withhold the privacy impact assessments that they have done 
until after the budget process is completed. And really, the 
whole purpose of the privacy impact assessment is to do it, get 
it out there for comment so that both this Congress and members 
of the public can take a look at it and comment upon it before 
something is set in stone.
    I think the recommendation of Ms. Katzen is 100 percent 
correct, that one way perhaps to strike the right balance here 
is to have that designated chief privacy counselor in OMB, 
preferably with some statutory basis, and then to go agency by 
agency where it's particularly necessary, with the Department 
of Justice, with the Social Security Administration. We have 
two very, very good non-statutory privacy officers at the 
Postal Service and at the IRS, both of whom are excellent but 
have no real statutory basis. And those are agencies that 
clearly need them.
    Mr. Watt. Thank you, Mr. Chairman. You've been very 
generous.
    Mr. Cannon. We appreciate it. Thank you, Mr. Watt. The 
gentleman yields back.
    And we thank the panel for your comment. I do have a couple 
of comments but first of all, without objection, Members will 
have--be allowed 7 days to submit questions \1\ for the members 
of the panel. Hearing no objection, so ordered.
---------------------------------------------------------------------------
    \1\ Post-hearing questions were submitted by the Honorable Chris 
Cannon, Chairman of the Subcommittee, to Ms. Nuala O'Connor Kelly, 
Chief Privacy Officer, U.S. Department of Homeland Security. No 
response had been received by the Subcommittee at the time this hearing 
was printed. A copy of the questions submitted by Mr. Cannon can be 
found in the Appendix.
---------------------------------------------------------------------------
    Let me just point out that the testimony today was 
appropriate and interesting and remarkably coherent. And I 
think we have our work cut out for us here. May I just say, in 
the first place, we intend to oversee this process rigorously. 
And secondly, we will take the comments and suggestions very 
much into consideration between now and the time that we mark 
up this bill at full Subcommittee and appreciate that.
    I believe at this point that there is good reason to have 
more statutory--more privacy officers with statutory authority. 
I think that's worked very well. I said earlier that I thought 
that Ms. O'Connor Kelly's work was historic and, in fact, I 
think it is groundbreaking and it's the foundation for what we 
do.
    I might just add my own comments. I think the 
Administration has done a remarkably good job in this regard. 
And maybe it's a little different. Somebody called it--said we 
ought to have a czar, a privacy czar at OMB. I forget who 
actually used that term.
    But my sense is that having done what we've done at DHS, 
and which Ms. O'Connor Kelly has really led on, gives us a much 
better sense of what can be done and frankly and particularly 
the importance of statutory authority, which I think Mr. 
Dempsey you talked about with particularity.
    I think that that has a tendency to grow the ideas. And I 
view that if we get a privacy czar at OMB, I wouldn't think of 
him as a czar so much as a best practices kind of person who is 
watching what happens. Because I don't think you can force 
privacy down. I think you need agencies to get the gospel, 
which is that if you--and I think you said this with great 
clarity, Mr. Dempsey. If you consider these in the design of 
the program with regulation, you end up with a much lower cost 
overall and a much better outcome.
    My experience with OMB, and I don't mean to disagree with 
you on this, Ms. Katzen, but it's always very bitter. It's just 
difficult when you're pounding on these guys who have great 
authority.
    And I don't think this is an issue that resolves itself 
well by a young person who comes in the Government and serves 
in OMB where he is given a robe of authority that transcends 
anything he could imagine or she could imagine in advance of 
that, and now is going to tell people who have actually got 
experience in an and agency and in the problems and the 
programs of that agency, how they're going to do business. I 
think it works much better if it goes the other way.
    But we are going to deal with that issue I can assure you, 
and I suspect we're going to see several more privacy officers 
because I think this has worked out well.
    So I thank the panel and Members for coming today. With 
that, we will stand adjourned.
    [Whereupon, at 4:35 p.m., the Subcommittee was adjourned.]


                            A P P E N D I X

                              ----------                              


               Material Submitted for the Hearing Record

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 <all>

</pre></body></html>
